Quarterly Progress and
Oversight Report on the Civilian
Assistance Program in Pakistan
As of December 31, 2011
Foreword
This is the eighth quarterly progress and oversight report on the U.S. Government’s civilian assistance
program in Pakistan. The U.S. Embassy in Pakistan requested quarterly reporting to inform stakeholders
about progress achieved to date, problems encountered during program implementation, and actions
taken to address them.

This report covers the period from October 1 to December 31, 2011. For fiscal year 2011, Congress
appropriated $1.086 billion authorized by the Enhanced Partnership with Pakistan Act of 2009, along
with other assistance funds, to support the civilian assistance strategy in Pakistan. The U.S. Embassy
reported that $617.7 million in fiscal year 2011 civilian assistance funds had been obligated and that
$162.2 million had been spent in fiscal year 2012 as of December 31, 2011. (Congress’s foreign
assistance appropriation for fiscal year 2012 does not provide country-specific funding levels for all types
of civilian assistance to Pakistan, and fiscal year 2012 allocations for civilian assistance to Pakistan had not
been made by December 31, 2011.)

The information on program status in this report is based on information provided by the departments
and agencies working in Pakistan—the U.S. Agency for International Development, the Department of
State, the Department of Defense, the Department of Commerce, the Department of Agriculture, and
the U.S. Trade and Development Agency. The information on program oversight comes from audits,
reviews, and investigations performed by the Offices of Inspector General of the U.S. Agency for
International Development, the Department of State, and the Department of Defense, as well as by the
U.S. Government Accountability Office.



____________/s/_________________
Michael G. Carroll
Acting Inspector General
U.S. Agency for International Development



____________/s/_________________
The Honorable Harold W. Geisel
Deputy Inspector General
Department of State



____________/s/_________________
Lynne M. Halbrooks
Acting Inspector General
Department of Defense
Contents
Executive Summary ........................................................................................................................................................... 1

Background.......................................................................................................................................................................... 3

Program Status ................................................................................................................................................................... 5

    Economic Growth ....................................................................................................................................................... 10

    Energy ............................................................................................................................................................................ 16

    Education ....................................................................................................................................................................... 19

    Health ............................................................................................................................................................................. 23

    Stabilization ................................................................................................................................................................... 26

    Cross-Cutting Priorities: Good Governance, Gender Equity, and Greater Transparency ..................... 33

    Assistance to Pakistani Institutions ......................................................................................................................... 36

Staffing ................................................................................................................................................................................ 39

Risks and Mitigation Strategies ..................................................................................................................................... 41

Oversight Status ............................................................................................................................................................... 46

    USAID Office of Inspector General........................................................................................................................ 46

    Department of State Office of Inspector General .............................................................................................. 53

    Department of Defense Office of Inspector General ........................................................................................ 54

    Government Accountability Office ......................................................................................................................... 54

    Completed Oversight Reports as of December 31, 2011 ................................................................................ 56

Appendix—–Abbreviations ........................................................................................................................................... 60
Executive Summary
The Enhanced Partnership with Pakistan Act of 2009, Public Law 111-73 (October 15, 2009), authorizes
democratic, economic, and development assistance to Pakistan of up to $1.5 billion per year from fiscal
year (FY) 2010 to FY 2014, for a total of as much as $7.5 billion. The U.S. Department of State’s
Pakistan Assistance Strategy Report, issued in December 2009, guides the U.S. Government’s civilian
assistance program in Pakistan, which is designed to build trust and a long-term partnership between the
two countries by strengthening mutual security, stability, and prosperity.

For FY 2011, Congress appropriated approximately $1.086 billion authorized by the Enhanced
Partnership with Pakistan Act of 2009. An additional $394 million from other civilian budgets brought
total available funding for Pakistan to $1.480 billion. The U.S. Embassy reported that $617.7 million
from this total had been obligated and that $162.2 million had been spent in FY 2012 as of
December 31, 2011.1 These funds are intended to address the country’s most critical infrastructure
needs; help the Pakistani Government meet basic needs and provide improved economic opportunities;
and strengthen Pakistan’s capacity to pursue economic and political reforms that reinforce stability.

The U.S. assistance program was affected by political and security challenges during the reporting period.
Following a cross-border incident involving North Atlantic Treaty Organization (NATO) and Pakistani
forces in late November that claimed the lives of 24 Pakistani soldiers, USAID partners were subject to
increasing scrutiny for their association with the U.S. Government. They were criticized and
threatened, and program events were rescheduled or cancelled as a result.                    Furthermore,
implementation of assistance programs was hindered by stricter Government of Pakistan requirements
for travel outside Islamabad and provincial capitals. Staffing was hampered by the denial of visas and visa
extensions for U.S. Government employees. Despite these challenges, implementation of assistance
programs continued.

The U.S. Agency for International Development (USAID) continued to implement more programs
through Pakistani institutions, including national and provincial governments and nongovernmental
organizations (NGOs). During FYs 2010–2011, USAID made 103 awards totaling more than $1.7 billion
to governmental and nongovernmental Pakistani institutions. USAID made an additional 17 awards to
these groups totaling $150.3 million from October 1 through December 31, 2011. To overcome risks
posed to the civilian assistance strategy and to improve monitoring and oversight of its programs,
USAID continued to conduct preaward assessments of local implementing partners. USAID also began
to conduct broad-based monitoring and evaluation activities.


1
  In December 2011, Congress provided FY 2012 funding for foreign assistance that included civilian assistance to
Pakistan in the Consolidated Appropriations Act, 2012, Public Law 112-74 (December 23, 2011). However,
Congress did not set country-specific funding levels for all types of assistance, and overall FY 2012 allocations for
civilian assistance to Pakistan had not been set by the end of the reporting period.


                                                                                                                   1
To protect USAID funds against waste and theft, USAID’s Office of Inspector General (OIG) pursued
hotline complaints and conducted investigations and audits. USAID OIG continues to work to reinforce
fraud reporting and investigation in Pakistan through the Anti-Fraud Hotline, which received 489 new
complaints during the reporting period. USAID OIG also released two performance audits during the
reporting period. At the time of the audits, neither project that OIG examined was on track to achieve
its main goals. USAID planned corrective actions in response to the audits and had fully addressed most
OIG recommendations for project improvement by the end of the quarter.

The Government Accountability Office (GAO) completed an independent assessment of the
Department of State’s 2011 certification of Pakistan’s progress on nonproliferation and
counterterrorism issues during the reporting period. This report is classified and is not publicly
available.




                                                                                                     2
Background
U.S. civilian assistance to Pakistan is critical to maintaining the long-term strategic partnership that the
U.S. Government sought to forge with the Government of Pakistan and its citizens through the
Enhanced Partnership with Pakistan Act of 2009, Public Law 111-73 (October 15, 2009). The act
authorizes $1.5 billion per year for FYs 2010–14, for a total of up to $7.5 billion, to support democratic,
economic, and development assistance.

In 2009, the U.S. Department of State (DOS) developed a strategy for providing civilian assistance to
Pakistan.2 The strategy’s objectives include addressing the country’s most critical infrastructure needs;
helping the Pakistani Government meet basic needs and provide improved economic opportunities,
especially in areas most vulnerable to extremism; and strengthening Pakistan’s capacity to pursue
economic and political reforms that reinforce stability. The strategy initially focused on high-impact,
high-visibility infrastructure programs; the provision of humanitarian and social services; and improved
governance and security. In 2011, USAID and DOS refined the strategy to focus assistance on economic
growth, energy, education, health, and stabilization. Programs in these sectors incorporate cross-cutting
themes of good governance, gender equity, and greater transparency.3

Political and security challenges for the U.S. assistance effort intensified during the reporting period,
from October 1 to December 31, 2011. USAID continued to adjust assistance programs in response to
the Punjab provincial government’s refusal of government-to-government assistance following the raid
on Osama bin Laden’s compound. In late November, a cross-border incident involving NATO forces
and Pakistani troops resulted in the death of 24 Pakistani soldiers and injury to 13 others. Shortly
thereafter, the Government of Pakistan closed NATO supply routes to Afghanistan, withdrew from
talks in Bonn on the future of Afghanistan, and ordered U.S. forces out of an airbase in southwestern
Pakistan.

The Consolidated Appropriations Act, 2012, Public Law 112-74, which was signed into law by the
President on December 23, 2011, requires the Secretary of State to certify that the Government of
Pakistan is cooperating with counterterrorism efforts, dismantling groups that supply materials for and
produce improvised explosive devices, issuing timely visas for U.S. counterterrorism and assistance
personnel, and providing humanitarian organizations access to detainees and civilians affected by the
conflict before using foreign assistance funds for that country. The law permits the Secretary of State to
waive this certification requirement if she determines that it is in the United States’ national security
interest to do so.



2
 Pakistan Assistance Strategy Report, December 14, 2009.
3
 Office of the Special Representative for Afghanistan and Pakistan, Status Report: Afghanistan and Pakistan Civilian
Engagement, November 2011.


                                                                                                                  3
Other bills under consideration would cut or strictly limit assistance to Pakistan. Bills pending in
Congress at the close of the quarter included measures to prohibit U.S. assistance of any kind to
Pakistan, prohibit all U.S. aid to Pakistan except aid providing for nuclear weapon security, prohibit all
nonsecurity assistance to Pakistan, and prohibit assistance to Pakistan unless the Secretary of State
certifies that the Government of Pakistan did not have information regarding Osama bin Laden’s possible
whereabouts on or after September 11, 2001, or if it did, that it communicated this information to the
U.S. Government expeditiously.4

Congress’s FY 2012 consolidated appropriation provides funds for civilian assistance to Pakistan.
However, Congress did not provide country-specific funding levels for all types of foreign assistance, and
overall FY 2012 allocations for civilian assistance to Pakistan had not been set by the end of the
reporting period.
                                          Map of Pakistan




        Source: USAID Office of Transition Initiatives, Geographic Information Unit.

4
 Congressional Research Service, Pakistan: U.S. Foreign Aid Conditions, Restrictions, and Reporting Requirements,
December 15, 2011.


                                                                                                               4
Program Status
The U.S. departments and agencies delivering development assistance in Pakistan are implementing
programs in economic growth, energy, education, health, stabilization, and the cross-cutting areas of
governance, gender equity, and greater transparency. The following sections provide information on the
status of the programs in these areas.

The U.S. Embassy reported that as of December 31, 2011, $4.313 billion in funds from FYs 2009, 2010,
and 2011 had been obligated and that $162.2 million had been spent to support the civilian assistance
strategy in FY 2012 (Table 1).

                   Table 1. Program Financial Status as of December 31, 2011
                                    ($ Millions; Unaudited)

                                                            Obligated*                     Expended
         Program              Manager
                                            FY 2009    FY 2010      FY 2011    Total       FY 2012†

 Economic Growth

 Economic growth           USAID               106.4       180.2      113.3      399.9         41.8

 International Trade
 Administration,
                           DOC                   3.0          –          –         3.0          –
 Department of Commerce
 (DOC)

 Commercial Law                                                                           Not available
                           DOC                   –            –          1.0        1.0
 Development Program‡                                                                        (NA)

 USAID transfer to the
 United Nations’ (U.N.)    U.N.                  1.0          –          –         1.0          –
 Bhutto Commission

                           U.S.
 Foreign Agriculture       Department of
                                                20.0        19.0         –        39.0           1.2
 Programs**                Agriculture
                           (USDA)

 Agriculture‡              USAID                63.0       104.4         –       167.4          13.9

 USAID transfer to U.S.
 Trade and Development     USTDA                 0.7          5.1        –         5.8          NA
 Agency (USTDA)




                                                                                                       5
                                                             Obligated*                  Expended
          Program                Manager
                                               FY 2009   FY 2010     FY 2011   Total     FY 2012†

USAID transfer to the
                              Department of
U.S. Department of the                             –           0.1        –        0.1     NA
                              the Treasury
Treasury

Humanitarian programs –
Office of Transition
Initiatives, National
Disaster Management
                              USAID                –         59.7         –       59.7       –
Authority, Pakistan Poverty
Alleviation Fund, Rural
Support Programmes
Network

Humanitarian assistance‡      USAID              304.9      275.2         –      580.2       5.7

Subtotals††                                      499.1     643.8       114.3   1,257.1      62.6

Energy

Energy‡                       USAID              143.9       98.3         –      242.3      23.2

                              Department of
Energy programs                                   NA         NA         NA        NA         NA
                              Energy

Subtotals††                                      143.9       98.3         –     242.3       23.2

Education

Education‡                    USAID              182.9      206.4         –      389.3       2.6

                              Public Affairs
Fulbright                     Section, U.S.       19.5       19.5       19.5      58.5       3.6
                              Embassy

Subtotals                                        202.4     225.9        19.5    447.8        6.2

Health

Health/water‡                 USAID              104.4      196.9         –      301.3      25.1

Health‡                       USAID                –         27.5         –       27.5       –

Subtotals                                        104.4     224.3          –     328.8       25.1




                                                                                                   6
                                                               Obligated*                   Expended
         Program                 Manager
                                                 FY 2009   FY 2010    FY 2011     Total     FY 2012†

Stabilization

Drug Enforcement
                              DEA                   NA         NA        NA          NA         NA
Administration (DEA)

                              Economic
Biosecurity engagement        Affairs Section,       9.0       15.0      10.7        34.7       NA
                              U.S. Embassy

U.S. Institute of Peace
                              USIP                   –          3.0         –        3.0        –
(USIP)

                              Department of
Immigration and Customs
                              Homeland               1.1        1.1         1.1      3.3        NA
Enforcement
                              Security

                              Narcotics
                   ‡          Affairs Section
Counternarcotics                                     3.0        5.5         –        8.5        0.3
                              (NAS), U.S.
                              Embassy

Federally Administered
                              NAS                   15.0         –          –       15.0        –
Tribal Areas roads, bridges

Federally Administered
Tribal Areas roads (Swat,     NAS                   40.0         –          –       40.0        1.1
Ring Road)

Border security (aviation)    NAS                   37.0       52.0         –       89.0        1.4

Border security
                              NAS                    1.2         –          –        1.2        0.9
(commodities, training)

Police/law enforcement
                              NAS                   54.8      102.6         –      157.4        5.1
training/rule of law‡

Demand reduction/
                              NAS                    0.5        1.5         –        2.0        –
awareness‡

Program development and
                              NAS                    9.8        4.4         4.4     18.6        –
support

                              Regional
Counterterrorism‡             Security Office,       9.7       15.4         3.3     28.4        –
                              U.S. Embassy




                                                                                                      7
                                                                Obligated*                  Expended
        Program                  Manager
                                                  FY 2009   FY 2010    FY 2011     Total    FY 2012†

Office of Transition
                              USAID                  75.7       26.0      51.2      152.9       8.3
Initiatives

                              Political Affairs
Mine Action – Response
                              Section (POL),          0.5         –          –        0.5       –
International
                              U.S. Embassy

Trafficking in Persons        POL                     0.5        0.8         –        1.3       NA

Humanitarian programs –
Office of Foreign Disaster
                              USAID                 102.6       18.6         0.3    121.4       NA
Assistance (OFDA),
Complex emergency

Humanitarian programs –
OFDA, Earthquake/             USAID                   2.3        0.1         –        2.4       NA
landslide

Humanitarian programs –
                              USAID                   –        115.0     114.2      229.2       NA
OFDA, 2010 Floods

Humanitarian programs –
                              USAID                   –           –          0.5      0.5       NA
OFDA, 2011 Floods

World Food Programme
(WFP) – Food for Peace
                              USAID                   –         20.0         4.3     24.3       NA
(FFP), Disaster Assistance,
Complex emergency

WFP– FFP, Disaster
                              USAID                   –        116.9      45.0      161.9       NA
Assistance, Floods

WFP– FFP, Title II,
                              USAID                  55.4       69.8      56.7      181.9       NA
Complex emergency

WFP– FFP, Title II, Floods    USAID                   –         27.0      58.4       85.4       NA

                              Department of
Mitigating Child Labor                                –          4.0         –        4.0       NA
                              Labor

                              Refugee Affairs
Pakistan Internally
                              Section (REF),         59.6       42.0      39.8      141.4           –
Displaced Persons
                              U.S. Embassy

Afghan Refugees               REF                    75.2       75.4      72.0      222.6       12.4




                                                                                                        8
                                                             Obligated*                   Expended
        Program                 Manager
                                              FY 2009   FY 2010     FY 2011     Total     FY 2012†

Pakistan Internally
                             REF                  –         49.3          2.7      52.0           2.7
Displaced Persons – Flood

                                                          In-kind
NAS – Flood                  NAS                  –                       –         –         –
                                                         support

Community Stabilization
                             Department of
and Humanitarian                                 10.0          –          –        10.0       –
                             Defense / DOS
Assistance Fund

Subtotals††                                     562.9     765.2       464.4     1,792.6      32.2

Cross-Cutting Priorities: Good Governance, Gender Equity, and Greater Transparency

Democracy Rights Labor       POL                 NA          NA         NA          NA        NA

Democracy – National
Endowment for                POL                 NA          NA         NA          NA        NA
Democracy

Democracy/Governance‡        USAID               47.7       95.6          –       143.2       9.6

Federal Bureau of
Investigation (FBI) /        FBI                  1.0         1.0         1.0       3.0       –
Legal Attaché Office

                             Public Affairs
                             Section, U.S.
Other exchanges                                   5.0         6.0         –        11.0       2.7
                             Embassy
                             Islamabad

                             Department of
Strategic communications                          7.0         7.0         7.0      21.0       –
                             Defense

                             Public Affairs
Strategic communications     Section, U.S.       30.9       17.8          9.2      57.9       –
                             Embassy

USAID transfer to USAID
                             USAID OIG            –           2.0         –         2.0       –
OIG‡

                             Public Affairs
Public diplomacy operating
                             Section, U.S.        2.0         2.0         2.2       6.2       0.5
expenses
                             Embassy

Subtotals††                                      93.6     131.3        19.4       244.3      12.8



                                                                                                        9
                                                                     Obligated*                       Expended
            Program                Manager
                                                   FY 2009     FY 2010     FY 2011       Total        FY 2012†

    Totals††                                        1,606.2     2,088.9       617.7      4,312.8         162.2

Source: U.S. Embassy Islamabad.

Note: In some cases, numbers in the table do not add up to provided subtotals and totals because of rounding.
A dash indicates a value of zero.

* Obligations are reported by the fiscal year for which corresponding funds were appropriated. Because no
  FY 2012 funds had been allocated or released for obligation by the end of the reporting period, no obligations
  were reported for FY 2012.
†
      Expenditure figures reflect funds expended in FY 2012 without regard to the year in which the funds were
      appropriated or obligated. These figures cannot be used to determine how much of the obligated funding
      reported in this table remains unexpended.
‡
      The FY 2011 spending plan for these funds had not been approved by Congress or released for obligation as of
      December 31, 2011.

** Greater amounts of Foreign Agriculture Program obligations were reported in previous quarterly reports due
   to the inclusion of funds unrelated to the civilian assistance program. These nonassistance funds were not
   included in obligations reported this quarter.
††
      These subtotals and total obligations and expenditures do not capture funding for all assistance programs
      because complete or consistent data was not available for all programs.


The U.S. Embassy in Islamabad also reported on unexpended obligations associated with civilian
assistance programs in Pakistan. According to the Embassy, $1.632 billion in funds obligated in prior
years remained unexpended as of December 31, 2011.5


Economic Growth

Over the past 3 years, Pakistan has experienced high inflation and relatively low economic growth.
Nationally, unemployment exceeds 12 percent, and rates are higher in urban areas. Small businesses
provide the majority of new employment, but they lack access to finance. Similarly, agriculture, which
accounts for 21 percent of gross domestic product and employs 44 percent of the labor force, is
constrained by insufficient investment and inappropriate policies.



5
  Because some of these unexpended obligations predate the FY 2009–11 period for which obligations are
reported in Table 1, the total unexpended amount cannot be used to determine expenditures or unexpended
obligations for those years.



                                                                                                                 10
The U.S. Government’s economic growth program for Pakistan is designed to stimulate broad-based,
inclusive economic growth, particularly in agriculture, trade, and entrepreneurship, through projects that
support policy reform, assist in workforce development, increase agricultural productivity, and improve
water management. USAID, DOC, USDA, and USTDA support programs under this category of
assistance.

USAID currently has 13 programs for economic growth, including 2 funds transfers to other agencies
(Table 2). These programs support trade facilitation, development of provincial irrigation systems, and
production and sale of agricultural commodities, among other activities.

                Table 2. USAID Programs to Promote Economic Growth as of
                             December 31, 2011 (Unaudited)

                                                  Start                   Implementing       Budgeted
     Name                  Description                      End Date
                                                  Date                      Partner         Amount ($)

                    Provides technical
                    assistance on policy
Competitiveness                                                          Ministry of
                    decisions, regulatory          3/06        3/12                           14,437,989
Support Fund                                                             Finance
                    frameworks, and public-
                    private partnerships

                    Assists small and medium-
                    size enterprises in areas
Firms Project       vulnerable to conflict to      5/09        2/13      Chemonics            47,688,726
                    help them become
                    internationally competitive

                    Improves customs
                    procedures and the
                    Pakistani Commercial
Trade Project                                      6/09        6/13      Deloitte             16,323,820
                    Service to increase exports
                    and trade at the Afghan
                    border

                                                                         Mennonite
                    Supports women’s
Entrepreneurs                                                            Economic
                    microenterprises in            6/09        6/14                           15,400,000
Project                                                                  Development
                    vulnerable areas
                                                                         Associates

                    Provides advisers to
Transfer to                                                   To be
                    support gem and mineral        2011                  DOC                   3,000,000
DOC                                                         determined
                    markets




                                                                                                       11
                                                Start              Implementing     Budgeted
     Name               Description                     End Date
                                                Date                 Partner       Amount ($)

                                                                   Water and
Gomal Zam        Improves irrigation systems                       Power
Irrigation       to increase agricultural       10/11     9/14     Development      40,000,000
Project          output                                            Authority
                                                                   (WAPDA)

Satpara          Improves irrigation systems
Irrigation       to increase agricultural       1/11      9/14     WAPDA            10,000,000
Project          output

                                                                   Dairy Rural
                 Improves milk production
Dairy Project                                   7/11      7/14     Development       4,000,000
                 and increases sales
                                                                   Foundation

Balochistan      Assists Balochistan in                            U.N. Food and
Agriculture      improving livelihoods and      9/10     12/12     Agriculture      10,400,000
Project          food security                                     Organization

                 Provides technical expertise
                 to support the
                 establishment of public-                          International
Grain Storage
                 private partnerships for the   1/11      1/14     Finance           2,500,000
Project
                 management, handling, and                         Corporation
                 storage of strategic grain
                 reserves

                 Improves production and
                 sales of commodities,
                 enhances Government of
Transfer to                                             Renewed
                 Pakistan research and          2009               USDA             40,000,000
USDA                                                    annually
                 extension work, and helps
                 eradicate agricultural
                 diseases

                 Strengthens evidence-based                        International
Agriculture      policy analysis for food                          Food Policy
                                                7/11      7/15                       5,800,000
Policy Project   security and                                      Research
                 macroeconomic stability                           Institute




                                                                                            12
                                                     Start                    Implementing         Budgeted
      Name                   Description                        End Date
                                                     Date                       Partner           Amount ($)

                     Increases productivity,
Agribusiness         product quality, and                                    Agribusiness
                                                     11/11        11/16                             10,300,000
Project              competitiveness of                                      Support Fund
                     agribusiness value chains*

Source: USAID/Pakistan.
* A value chain includes the full range of activities required to bring a product or service from concept to end
  use. Value chains include activities such as design, production, marketing, and distribution.


USAID considers the following two performance indicators in monitoring the overall results of its
economic growth programs: number of smallholder farmers benefiting from U.S. Government assistance
(662,240 smallholder farmers as of December 31, 2011) and number of hectares under improved
technologies or management practices as a result of U.S. Government assistance (6,274 hectares as of
December 31, 2011).

USAID reported the following examples of progress and success in its portfolio of economic growth and
agricultural programs:

    The Trade Project supported a subworking group of the Federal Board of Revenue to discuss
    infrastructure requirements at two border crossings, Torkham and Chaman. The project has
    initiated a rapid information technology assessment of the Customs Office and the customs process.
    Upon completion of the assessment, the project will support an electronic data interchange at the
    Torkham and Chaman crossings to manage the risk of bottlenecks at critical points in the clearance
    process on the Afghanistan-Pakistan border.

    The Trade Project began providing support for the normalization of trade with India. After
    discussions with the Government of Pakistan and private sector stakeholders, the project identified
    potential areas for support. The project identified credible local Pakistani institutions and individuals
    to serve as partners in research and in raising public awareness. The project also conducted a rapid
    capacity assessment of the customs border post at Wagah on the Pakistan-India border to anticipate
    procedural and infrastructural bottlenecks that could occur as trade between the two countries
    increases.

    During the period, the Entrepreneurs Project registered 21,609 producers for assistance, 86 percent
    of whom were women. Under the project, producers were organized into 597 groups for
    assistance with dairy, embellished textile, and medicinal and aromatic plant value chains. Of the
    project’s registered beneficiaries, 11,751 have received training in improved production practices.



                                                                                                             13
   The Firms Project introduced the Balochistan Agriculture Department to the reform movement in
   agricultural marketplaces currently under way in Punjab Province. These reforms permit private
   sector management of agricultural marketplaces, reducing a number of restrictive practices
   associated with government-managed markets.

   The Competitiveness Support Fund held the second international conference of the Competition
   Commission of Pakistan, ―Competition Enforcement Challenges and Consumer Welfare in
   Developing Countries,‖ on December 1–2, 2011. Panelists drawn from 12 countries shared
   perspectives on the enforcement of and advocacy for competition law in their countries, and lauded
   the Competition Commission of Pakistan for its related work in Pakistan. Representatives from
   USAID, the U.S. Embassy, and the Government of Pakistan—including Prime Minister Gilani—
   attended the conference.

   USAID signed the Gomal Zam Irrigation Project with WAPDA on October 15, 2011, and on
   November 3, 2011, signed a purchase order with ELAN Partners to conduct site visits to verify
   work done by WAPDA. ELAN Partners verified the first and second project benchmarks, paving
   the way for corresponding project payments to WAPDA.

   The Agriculture/Flood Recovery Project continues to work in the province of Khyber Pakhtunkhwa
   on the rehabilitation of 281 flood-damaged small irrigation sites, mainly water courses. Additional
   cement, sand, and gravel are being supplied to these sites under the project.

   USAID signed its Agribusiness Project cooperative agreement with the Agribusiness Support Fund
   on November 10, 2011. The project is a nationwide effort to develop livestock and horticultural
   value chains.

USAID also reported challenges to implementing its economic growth and agriculture programs.
Among these was the decision by the Punjab provincial government not to accept USAID assistance.
The inability to work with the provincial government there poses challenges for program coordination
and obtaining necessary cooperation on policy-related issues.

DOC. DOC has three programs that support the Embassy’s economic growth initiative—its market
research, preliminary information memorandum, and event management programs.

   The market research program aims to provide interested investors with information about
   promising sectors of the Pakistani economy. DOC’s partner for the project has completed seven
   market research reports on the automotive, energy, food-processing and -packaging, information
   technology, telecommunications, paper and paper board, and oil and gas sectors.




                                                                                                   14
   DOC’s preliminary information memorandum program is designed to highlight credible projects
   with high potential for financial return. As of December 2011, 13 preliminary information
   memorandums had been completed under the program and 3 others were in the final stages.

   The event management program has sponsored an investment promotion conference, a Pakistani
   business delegation to the United States, and a delegation of prospective American investors to
   Pakistan. During the quarter, DOC collaborated with the Pakistani Board of Investment to sponsor
   a multilateral investment promotion conference, which attracted significant media coverage. Two
   more business delegations and three investment promotion conferences were in the planning stage
   as of December 2011.

DOC reported that security-related political developments hampered program progress during the
quarter. DOC planned to hold an investment promotion conference in November 2011, but the event,
which the Pakistani Prime Minister and the U.S. Ambassador were expected to attend, was postponed
following the cross-border incident earlier that month.

USDA. USDA continues to implement agricultural development programs with funding from USAID.
These programs provide assistance to increase agricultural productivity through technical exchanges,
agricultural research, and control of plant and animal diseases. USDA programs are implemented
through international organizations. These institutions, in turn, work with Pakistani universities,
Pakistani agricultural research groups, and government agencies to implement program activities.

USDA reported the following examples of progress and success for the quarter:

   The Wheat Productivity Enhancement Program registered a stem-rust-resistant wheat variety and
   initiated a wheat-rust surveillance system in Pakistan to identify rust diseases from different locations
   in the country.

   Under the Animal Disease Control Program, more than 100 laboratory technicians and veterinarians
   were trained in advanced techniques for diagnosing foot and mouth disease, and diagnostic
   equipment was provided to each of the provincial veterinary laboratories and the National
   Veterinary Laboratory in Islamabad.

   Under the Cotton Productivity Enhancement Program, USDA and Pakistani researchers tested 365
   cotton varieties to evaluate their level of resistance to cotton leaf curl virus.

   The International Center for Agricultural Research in Dry Areas held a workshop for provincial and
   national research groups and government officials to establish work plans and budgets for the
   Watershed Rehabilitation Program. The program will construct demonstration farms to teach
   farmers the benefits of good farm water management and to introduce alternative technologies for
   irrigation and on-farm water storage.


                                                                                                         15
   USDA recruited and selected eight Pakistani researchers for a Norman Borlaug fellowship to study
   wheat rust in Mexico, the United States, and Kenya. USDA also selected ten candidates under the
   Cochran Fellowship Program to study enhanced techniques for aquaculture feeding and fresh water
   fish production at U.S. universities.

   The American Soybean Association, USDA’s implementing partner, signed an agreement with the
   Pakistani Aquaculture Development Board to conduct fish feeding trials using U.S. soybean meal and
   production management techniques.

USDA reported that its programs are working well at the provincial and local levels. At the national
level, however, delays in establishing the Pakistani Food Security and Research Ministry have posed
problems for some programs because there is no clear Pakistani counterpart to make decisions
regarding program activities. USDA also noted that visa difficulties in both Pakistan and the United
States have prevented some scientists from participating in training programs and conferences. New
policies requiring the submission of visa requests sooner should help alleviate these problems.

USTDA. USTDA funds various forms of technical assistance, feasibility studies, reverse trade missions,
and business workshops that support the development of a modern infrastructure and a fair and open
trading environment. In Pakistan, USTDA activities emphasize the need for infrastructure improvement
in energy, transportation, and food security and attempt to link Pakistani development interests with
U.S. exports and American companies offering project solutions.


Energy
Nearly half of the Pakistani population lacks access to modern energy services. Rolling blackouts often
last 10 to 12 hours per day, constraining economic development and disrupting health, education, and
other services. High subsidies, low rates of tariff collection, and distorted prices have discouraged
private companies from building additional capacity. The U.S. Government and other donors are
providing technical assistance to help the Pakistani Government develop appropriate energy pricing,
regulatory, and privatization policies and are assisting in implementing Pakistan’s energy reform plan.

U.S. Government agencies aim to increase electricity generation, decrease transmission losses, and
increase cost recovery by investing in selected energy infrastructure and supporting Pakistani
Government reform efforts with technical assistance and new technology. USAID supports programs in
this category of assistance.

USAID has nine energy programs under way. To meet growing energy demands, USAID’s programs
seek to help the Pakistani Government supply hydropower through the completion of the Gomal Zam
and Satpara Dams and the rehabilitation of the Tarbela Dam. USAID is also rehabilitating three thermal
power stations. Table 3 lists USAID’s active programs in this category of assistance.




                                                                                                    16
           Table 3. USAID Energy Programs as of December 31, 2011 (Unaudited)

                                                         Start   End     Implementing       Budgeted
       Name                     Description
                                                         Date    Date      Partner         Amount ($)

                          Increases hydropower
Gomal Zam Dam
                          capacity and builds            1/11    12/12   WAPDA               40,000,000
Project
                          transmission lines

Satpara Dam               Increases hydropower
                                                         1/11    4/13    WAPDA               19,000,000
Project                   capacity

Tarbela Dam               Rehabilitates a
                                                         4/10    3/12    WAPDA               16,500,000
Project                   hydropower station

                          Rehabilitates a thermal
Jamshoro Project                                         5/10    7/12    WAPDA               18,360,000
                          power station

Muzaffargarh              Rehabilitates a thermal
                                                         5/10    7/12    WAPDA               15,193,000
Project                   power station

                          Repairs and maintains a
Guddu Project                                            5/10    11/12   WAPDA               18,068,000
                          thermal power station

                          Improves management
                          capacity, financial systems,
Power Distribution                                                       International
                          billings, and collections of   9/10    9/13                        59,500,000
Project                                                                  Resources Group
                          power distribution
                          companies

                                                                         International
Tube Well                 Improves efficiency of                         Resources Group
                                                         3/09    3/12                        28,500,000
Efficiency Project        irrigation tube wells                          and Khushhali
                                                                         Bank

                          Provides technical and
                          engineering support to                         Advanced
Energy Policy             USAID-funded                                   Engineering
                                                         10/08   2/12                        12,379,639
Project                   infrastructure projects                        Associates
                          implemented by the                             International
                          Government of Pakistan

Source: USAID/Pakistan.


USAID considers the following performance indicator in monitoring the overall results of its energy
programs: megawatts of energy added as a result of U.S. Government-supported construction and
rehabilitation efforts (380 megawatts as of December 31, 2011).
                                                                                                      17
USAID reported the following examples of accomplishments in its portfolio of energy programs:

   The six signature energy projects that Secretary Clinton announced in October 2009, involving
   rehabilitation and new construction of hydroelectric and thermal power plants, progressed. USAID
   has received claims for reimbursement worth $66.5 million, of which $59.8 million has been
   reimbursed to the Government of Pakistan since January 2011.

   The Tarbela Dam is now generating an additional 108 megawatts of capacity.

   The Satpara Dam is currently operating at 13.8 megawatts of capacity and is serving the population
   of Skardu.

   Thermal power plants at Jamshoro and Muzaffargarh added 25 megawatts and 235 megawatts,
   respectively, of power generation capacity to the country.

   Women working in engineering, customer service, and other departments of the Islamabad Electric
   Supply Company received information technology training as part of the Power Distribution Project.
   The project is helping reform the energy sector by improving the performance of Pakistan’s power
   distribution companies so that they can reduce losses and generate more income. In total, 1,100
   people are being trained.

   Capacity-building efforts continue at more than 20 key government institutions with responsibilities
   relating to power sector performance. More than 900 Government of Pakistan officials have
   received technical training on critical energy activities aimed at improving operational performance,
   customer service, and financial results.

   USAID has begun to restructure its Tube Well Efficiency Project to increase overall pump sales and
   reduce the time between farmers’ decisions to use high-efficiency pumps and actual pump
   installation. In addition, USAID has taken steps to respond to OIG audit recommendations,
   including modifying the terms of the underlying contract to reflect changes in project activities.

USAID also reported challenges to the implementation of its energy programs:

   USAID continues to study the outcomes of the U.S.-Pakistan Energy Dialogue and evaluate critical
   issues in the energy sector, including governance, financial health, electricity rates, market efficiency,
   private sector participation, civil society and community participation, institutional capacity, and the
   legal and regulatory framework.

   USAID amended fixed-amount reimbursement agreements for the hydropower dams at Tarbela,
   Gomal Zam, and Satpara to reflect new completion dates and adjust payment schedules to address
   immediate funding requirements and enhance project performance. Parallel amendments to the

                                                                                                          18
    agreements for thermal power plants in Guddu, Muzaffargarh, and Jamshoro are under way. Delays
    in the acquisition of parts, prolonged contract negotiations with subcontractors, and lack of foreign
    exchange allowances have delayed project implementation.


Education

Pakistan’s education system faces serious challenges. According to the U.N. Educational, Scientific and
Cultural Organization’s 2011 Education for All Global Monitoring Report, Pakistan ranks 119 out of 127
countries on the Education for All Development Index. Pakistan’s schooling system is beset by chronic
underfinancing, poor quality, and corruption, resulting in some of the worst and most unequal results on
education indicators in South Asia. Pakistan has a net primary school attendance rate for both genders
of 66 percent, compared with a world average of 90 percent. Of the children who do enroll in school,
30 percent drop out by Grade 5. In higher education, Pakistan remains far behind most of its neighbors
in terms of quality, access, and capacity. In FY 2011, only 4.2 percent of 18- to 23-year-olds in Pakistan
had access to higher education, a significantly smaller proportion than in India (7 percent) and Malaysia
(12 percent).

The United States aims to improve access to high-quality education through its assistance in basic and
higher education. These efforts include repairing and rebuilding schools and colleges, providing access
to high-quality teaching and learning materials, improving teacher preparation, strengthening the reading
skills of primary grade students, improving provincial and district management and policies, developing
university scholarships and faculty exchanges in applied research in key disciplines, and fostering effective
oversight of education by civil society. USAID and the U.S. Embassy’s Public Affairs Section (PAS)
support programs for educational improvement.

During the reporting period, USAID had nine education programs under way (Table 4). These
programs focus on improvement in basic and higher education by providing training for teachers,
scholarships for students, and support for reconstruction and renovation of schools.

         Table 4. USAID Education Programs as of December 31, 2011 (Unaudited)

                                              Start                     Implementing          Budgeted
      Name               Description                     End Date
                                              Date                        Partner            Amount ($)

                     Provides
U.S.-Pakistan        opportunities for
Science and          cooperation between                               National
                                                         Renewed
Technology           Pakistan and the          9/05                    Academy of                12,705,605
                                                         annually
Cooperative          United States in                                  Sciences
Program              science and
                     technology




                                                                                                          19
                                             Start              Implementing         Budgeted
     Name               Description                  End Date
                                             Date                 Partner           Amount ($)

                                                                U.S. Department
                    Provides scholarships                       of State and
Fulbright Scholar   to Pakistani graduate            Renewed    United States
                                             9/04                                     132,000,000
Program             students to study at             annually   Educational
                    U.S. universities                           Foundation in
                                                                Pakistan

Higher              Provides budget
Education           support to the Higher                       Higher Education
                                             3/10      2012                            91,000,000
Commission          Education                                   Commission
Support             Commission

                    Supports construction
Women's Hostel      of a 360-bed women’s                        Forman
                                             7/11      8/14                             7,000,000
Project             dormitory at Foreman                        Christian College
                    Christian College

                    Trains primary and
Education           middle school                               American
Quality and         teachers and             10/07    10/12     Institutes for         89,314,430
Access Project      renovates conflict-                         Research
                    damaged schools

                    Provides interactive
Children's                                                      Rafi Peer
                    teaching and learning
Television                                   5/10      5/14     Theatre                10,000,000
                    for children through a
Project                                                         Workshop
                    television program

Earthquake-
Damaged             Reconstructs
                                                                Smith
Schools             earthquake-damaged       10/06     4/12                           121,250,980
                                                                Construction
Reconstruction      schools
Program

Pre-Service
                    Provides preservice                         Educational
Teacher
                    education for            5/11      9/13     Development            40,000,000
Education
                    teachers                                    Center
Program




                                                                                                 20
                                             Start                    Implementing         Budgeted
      Name                Description                  End Date
                                             Date                       Partner           Amount ($)

                     Supports early grade
                     reading program,
Sindh Basic          provides technical                              Sindh
Education            assistance, and         9/11         9/16       Department of           105,000,000
Program              supports                                        Education
                     reconstruction of
                     schools

Source: USAID/Pakistan.


USAID considers the following two performance indicators in monitoring the overall results of its
education programs: number of schools constructed with U.S. Government support (36 schools as of
December 31, 2011) and number of schools rehabilitated with U.S. Government support (213 schools
as of December 31, 2011).

USAID reported the following examples of accomplishments in its portfolio of education projects:

    The Higher Education Commission (HEC) created a 4-year bachelor’s degree and a 2-year
    associate’s degree in education with USAID support. These degree programs are offered at
    universities and colleges in every province. USAID is working this year with universities to develop
    additional courses of study for these degrees. The introduction of the associate degree concept has
    proven so successful that HEC has decided to offer associate degrees in all subjects at all
    universities.

    Technical assistance in teacher education and professional development has placed the issue of
    qualified teachers on the national agenda. Preservice standards to professionalize the teaching force,
    developed with USAID assistance, have been adopted in Sindh Province and are being introduced in
    all other provinces.

    ―Sim Sim Hamara,‖ an educational television program for children created by the Pakistan Children’s
    Television Project, was formally launched at a celebration in Lahore on November 26, generating
    widespread national and international media interest. The implementing partner, Rafi Peer Theatre
    Workshop, created ―Sim Sim Hamara‖ in collaboration with Sesame Street Workshop USA. The
    weekly program will introduce children to basic language and math skills while teaching tolerance
    and mutual respect. The first episode aired in Urdu on the Pakistan Television Network on
    December 10; episodes of the program in four other languages spoken in Pakistan are expected to
    air in 6 months.

    USAID worked with HEC to introduce need-based scholarships, which had not previously been
    given in Pakistan. To date, 1,400 such scholarships have been awarded, and 559 students are

                                                                                                       21
   currently receiving such scholarships. Through USAID assistance, 11 universities established
   financial aid offices and were trained in fundraising for their own scholarship programs. Today,
   universities across Pakistan have financial aid offices based on the model USAID established with
   HEC.

USAID also reported challenges to the implementation of its education projects:

   Although U.S. Government assistance has improved access to and the quality and governance of the
   education system, political and security issues continue to hinder movement of staff, slow
   implementation, and even lead to the cancellation of projects. For example, USAID’s $150 million
   flagship Southern Punjab Basic Education Program was cancelled by the Chief Minister of Punjab,
   who refused government-to-government assistance shortly after the raid on Osama bin Laden’s
   compound in Abbottabad. This project cancellation represented a missed opportunity for more
   than 1.8 million children, 3,000 schools, and 50,000 teachers, and required USAID to adjust its
   approach to basic education. USAID subsequently signed a $59 million agreement with the
   government of Sindh Province to support the Sindh Basic Education Program using funds initially
   intended for the Punjab Basic Education Program. USAID is preparing revised targets to reflect this
   shift in the program.

   In FY 2011, constitutional reforms were signed into law leading to the decentralization of Pakistan’s
   basic education sector. Schools at all levels are now the responsibility of local governments and
   districts. This devolution of authority is expected to improve access to and quality of education and
   provide opportunities to improve governance, reinforce local curriculums, increase monitoring of
   educational performance, and strengthen accreditation. However, local capacity to manage these
   responsibilities varies greatly, and newly established districts with very low management capacity will
   require continued technical assistance to meet the challenges facing them.

   In higher education, uncertainty about the governance and budgetary situation, along with political
   instability and the deteriorating security situation, has decreased support for students just when the
   demand for resources for evolving scientific and engineering programs is rising. These factors create
   challenges for HEC and threaten to reverse improvements in quality, undercut faculty retention, and
   reduce student enrollment—all of which could, in turn, undermine the sector’s impact on economic
   and social development.

PAS. PAS operates the largest U.S. Government-sponsored educational and cultural program in the
world in support of the mission’s education and strategic communication efforts. PAS is currently
focused on maintaining exchange programs and expanding in-country English language and alumni
programs.

PAS exchange programs are largely implemented through U.S.-based not-for-profit institutions.
However, outreach and participant recruiting activities are conducted with a wide variety of Pakistani
Government entities, media, educational institutions, and NGOs. The United States Educational

                                                                                                       22
Foundation in Pakistan is heavily engaged in the recruitment and selection of participants for academic
and professional programs.

According to PAS, bilateral exchange programs have received record applications, and in 2011, a new
focus on alumni programming invigorated a Pakistani-led alumni association that currently has more than
8,000 members. Meanwhile, PAS efforts to expand in-country English instruction have resulted in the
enrollment of 6,000 Pakistani students between the ages of 14 and 15 in associated after-school
programs. Using Pakistani interlocutors, the program is expanding into regions of strategic interest,
including Quetta and other regions of Balochistan, southern Punjab, and Khyber Pakhtunkhwa.

Outside evaluations of PAS’s Fulbright Program and the Global Undergraduate Program scheduled for
completion in the fall of 2012 began during the reporting period.

PAS identified two main program challenges during the reporting period. Programs that bring U.S.
citizens (e.g., cultural envoys and speakers) to Pakistan have been hampered by problems obtaining
Pakistani visas. In addition, security restrictions continue to impede efforts within Pakistan, limiting
programs to Islamabad, Karachi, and Lahore. To address the latter challenge, PAS employs digital video
conferencing and Internet-based streaming to communicate with a wider audience.


Health

The quality of basic health services is uneven in Pakistan, with the rural population particularly
underserved. Improving the quality of care is complicated by the country’s growing population and by
the ongoing devolution of health services to the provinces. Pakistan’s high fertility rate is expected to
more than double the population by 2050, further straining the health system. The provinces, which do
not yet have the financial and human resources to assume added health-care responsibilities, are
negotiating with the federal government for adequate funding, skilled staff, and management and
accountability systems at the provincial level.

USAID supports the Government of Pakistan in developing the capacity to deliver, with the assistance of
NGOs and contractors, high-quality, cost-effective health interventions. Examples include efforts to
reduce infant mortality and prevent maternal deaths.

USAID has 14 programs under way to support health services (Table 5). These programs focus on
renovation and reconstruction of facilities, family planning, and polio eradication. In addition, USAID will
be supporting a Demographic and Health Survey in Pakistan to collect and compile household
information to inform national health indicators.




                                                                                                         23
          Table 5. USAID Health Programs as of December 31, 2011 (Unaudited)

                                               Start    End       Implementing       Budgeted
     Name               Description
                                               Date     Date        Partner         Amount ($)

Jinnah Post-       Reconstructs
                                                                  CDM
Graduate           the obstetrics and
                                               5/10      4/13     Constructors         4,059,270
Medical Center     gynecology/fistula
                                                                  Inc. (CDM)
Project            ward

Jacobabad Civil    Renovates Jacobabad
                                               10/10    10/13     CDM                 10,049,000
Hospital Project   Hospital

                   Procures
Health Supplies    contraceptives and
                                               4/10      4/15     Various             44,975,765
Project            vaccines for national
                   distribution

                   Provides logistical
                   support with
Health Supplies                                        Renewed
                   contraceptives to the       9/08               John Snow Inc.       5,000,000
Delivery Project                                       annually
                   provincial health
                   ministries

                   Supports the
Family Health      diversification of                             Population
                                               6/07      6/12                         48,424,566
Project            family planning                                Council
                   activities

                   Develops and
Health Services    strengthens                                    Pakistan Health
Academy            institutional capacity in   7/08     12/12     Services             7,200,000
Support Project    public health training                         Academy
                   and research

                                                                  Koninklijk
                   Conducts a survey of
Tuberculosis                                                      Nederlandsche
                   tuberculosis                6/10      3/12                          4,570,000
Survey Program                                                    Centrale
                   prevalence
                                                                  Vereeniging

Polio                                                             United Nations
                   Conducts annual polio               Renewed
Vaccination                                    1/03               Children’s Fund      8,500,000
                   eradication campaigns               annually
Program                                                           (UNICEF)

Polio
                   Conducts annual polio               Renewed    World Health
Vaccination                                    1/03                                    9,000,000
                   eradication campaigns               annually   Organization
Program

                                                                                                   24
                                               Start     End       Implementing          Budgeted
      Name                Description
                                               Date      Date        Partner            Amount ($)

                     Renovates flood-
Tuberculosis         affected tuberculosis
Project (flood       facilities and restocks   4/11      12/11     John Snow Inc.           7,378,000
support)             their medicines and
                     equipment

                     Supports the National
                     Nutrition Survey,
                     which will identify
Nutrition            links between
                                                                   Aga Khan
Assessment           nutrition and family      4/11      4/12                                 588,974
                                                                   University
Project              planning and
                     determine the level of
                     vaccination coverage
                     in Pakistan

                     Assists with the
                     devolution of nearly
Health Care
                     all public health
Management                                     1/11      1/14      John Snow Inc.           5,265,000
                     responsibilities from
Project
                     the federal to
                     provincial ministries

Field
Epidemiology                                                       Centers for
                     Provides training to
and Laboratory                                 8/05      12/11     Disease Control          5,683,676
                     epidemiologists
Training                                                           and Prevention
Program

                     Supports a survey to
Demographic          collect health status                         Macro
                                               12/11     12/15                              8,000,000
Health Survey        data and statistics for                       International Inc.
                     national indicators

Source: USAID/Pakistan.


USAID considers the following two performance indicators in monitoring the overall results of its health
programs: number of health facilities rehabilitated with U.S. Government support (130 facilities in
FY 2011), and number of polio immunization campaigns completed (8 campaigns in FY 2011).

USAID reported the following examples of progress and success in its health programs:



                                                                                                        25
    The USAID Health Care Management Project provided technical assistance to the Government of
    Sindh to develop a health sector reform unit within the provincial department of health. A budget
    has been allocated for this unit, and the Sindh Government is in the process of establishing this new
    entity, which will play the lead role in planning and enacting health reforms.

    The Pakistan Health Services Academy, with USAID support, organized the second annual public
    health conference in Pakistan. The theme of the conference was ―Promoting Public Health in the
    Wake of the Reforms.‖ The conference brought together leaders from government, NGOs, the
    private sector, academia, and international development partners to share ideas to improve
    governance and augment human resources in public health now that the responsibilities for health
    care have been devolved to provincial departments of health.

    Through USAID efforts to reduce the spread of hepatitis, 13.5 million single-use syringes were
    distributed to provinces. The syringes are part of a larger hepatitis control program aimed at
    addressing unsafe injection practices in health facilities.

USAID also reported health program implementation challenges associated with changes in the
administration and management of government health systems in Pakistan. With the devolution of the
Ministry of Health, adequate financing and clear roles and responsibilities at the provincial level have yet
to be resolved. The lack of organization after devolution remains problematic for the Pakistani health-
care system.


Stabilization

The U.S. Government seeks to enhance stability in border areas and regions vulnerable to violent
extremism. The U.S. Government supports the Government of Pakistan’s efforts in the Federally
Administered Tribal Areas (FATA), Khyber Pakhtunkhwa, and other key areas through short-term
development activities, some longer-term infrastructure investments, and support for incremental
improvements in governance. Stabilization activities are guided by USAID’s strategy for stabilization that
was prepared in 2011 and closely aligned with the 2010 Post Crisis Needs Assessment for FATA and
Khyber Pakhtunkhwa. Activities include improving the responsiveness and effectiveness of the Pakistani
Government in restoring citizen trust, stimulating employment and livelihood opportunities, ensuring the
delivery of basic services, countering radicalization, and fostering reconciliation. USAID, the U.S.
Embassy’s NAS and the Regional Security Office (RSO) support assistance programs in this category.

USAID had 19 stabilization programs under way during the quarter (Table 6). These programs provide
cash transfers for housing damage, vocational training, and improvements in roads and electricity
generation. In addition, USAID is planning a program that will provide physical, social, and economic
support to civilian victims of conflict.




                                                                                                         26
       Table 6. USAID Stabilization Programs as of December 31, 2011 (Unaudited)

                                                      Start   End     Implementing       Budgeted
     Name                    Description
                                                      Date    Date      Partner         Amount ($)

                    Provides vocational training
                    and apprenticeships,
FATA Livelihood
                    establishes market linkages,
Development                                           5/08    2/13    **                  59,400,000
                    and undertakes improvements
Program
                    in small-scale infrastructure
                    for farmers

                    Improves roads; water
FATA
                    infrastructure; and electricity
Infrastructure                                        12/09   12/14   **                 160,000,000
                    generation, distribution, and
Program
                    transmission

                    Supports conditions for
Pakistan                                                              Office of
                    stability and development in
Transition                                            11/07   12/15   Transition         130,919,945
                    conflict-prone and other
Initiative                                                            Initiatives
                    priority areas of Pakistan

                                                                      Provincial
Khyber
                    Supports the reconstruction                       Reconstruction,
Pakhtunkhwa
                    and recovery of conflict-         3/10    12/14   Rehabilitation      83,534,400
Reconstruction
                    affected districts                                and Settlement
Program
                                                                      Authority

                    Increases the capacity of
                    FATA Secretariat for
FATA Secretariat    participatory planning,
                                                      9/11    9/16    **                   5,000,000
Support Project     management, and oversight of
                    stabilization and development
                    activities

Provincial
Reconstruction,     Increases capacity for
Rehabilitation      management and oversight of
                                                      2/10    1/12    **                   1,527,398
and Settlement      stabilization and development
Authority           activities
Capacity Building




                                                                                                  27
                                                     Start   End     Implementing       Budgeted
     Name                   Description
                                                     Date    Date      Partner         Amount ($)

                   Provides health equipment
                   and mobile health units,
FATA Child
                   reconstructs health facilities,   9/06    12/12   **                  26,150,000
Health Project
                   and trains health-care
                   providers

                   Supports monitoring and
Monitoring and
                   verification of USAID
Evaluation –                                         4/10    2/12    **                   3,760,000
                   investments in small-scale
Malakand
                   infrastructure

                   Supports monitoring and
Monitoring and
                   verification of USAID
Evaluation –                                         12/09   2/12    **                   2,340,000
                   investments in road and
FATA
                   electricity infrastructure

Radio
Transmitters in
                   Provides radio transmitters to
FATA and
                   FATA and Khyber                   6/10    3/12    **                   8,639,577
Khyber
                   Pakhtunkhwa
Pakhtunkhwa
Project

                   Establishes child protection
Child Protection
                   centers and provides support      9/10    9/12    UNICEF               3,538,000
Program
                   for psychological counseling

Benazir Income                                                       Benazir Income
                   Provides cash assistance to
Support                                              6/09    6/10    Support Program    160,000,000
                   needy families
Program†                                                             (BISP)

                                                                     Provincial
                   Provides housing damage
Malakand and                                                         Reconstruction,
                   assistance for FATA and
FATA Housing                                         6/10    9/12    Rehabilitation      65,000,000
                   Khyber Pakhtunkhwa through
Support Program                                                      and Settlement
                   a cash transfer
                                                                     Authority

                                                                     National
Citizens’ Damage
                   Provides cash assistance to                       Database and
Compensation                                         6/11    6/12                       190,000,000
                   flood-affected households                         Registration
Fund
                                                                     Authority




                                                                                                 28
                                                          Start      End       Implementing         Budgeted
       Name                     Description
                                                          Date       Date        Partner           Amount ($)

                       Provides grants in Khyber
                       Pakhtunkhwa, FATA, and
                       Balochistan for restoration of
                       damaged infrastructure and
Multi-Donor
                       disrupted services,                 7/10      12/15     World Bank             25,000,000
Trust Fund
                       improvement of government
                       service delivery, and
                       maintenance of community
                       livelihoods

Human
Resources,
Logistical and
Rapid                  Provides capacity building and
                                                                               International
Procurement            procurement of relief supplies
                                                           8/10       3/12     Organization for        5,800,000
Support to             for flood-affected people on
                                                                               Migration
National Disaster      behalf of NDMA
Management
Authority
(NDMA)

Monitoring and
Assessment of
                       Monitors USAID-funded flood
USAID’s Sindh                                             10/10       3/12     **                        192,171
                       assistance activities in Sindh
Flood Relief
Efforts

Monitoring and
                       Monitors USAID-funded flood
Assessment of
                       assistance activities in           10/10       3/12     **                        204,284
Balochistan Flood
                       Balochistan
Relief Efforts

Monitoring and
Assessment of
USAID’s Punjab         Monitors USAID-funded flood
and Khyber             assistance activities in Punjab    10/10       3/12     **                        487,518
Pakhtunkhwa            and Khyber Pakhtunkhwa
Flood Relief
Efforts

Source: USAID/Pakistan.
** The names of some USAID implementing partners above have been withheld for security reasons.
†
    USAID has fully disbursed assistance dollars to BISP but continues to monitor BISP rupee disbursements.

                                                                                                              29
USAID reported the following examples of progress and success in its stabilization activities:

    The FATA Secretariat has taken advantage of a second phase of USAID capacity building and
    technical assistance to address priority needs identified in the project baseline assessment
    completed in October 2011. USAID implementation of management systems and training program
    development has begun on four systems: human resources, local government, social welfare, and
    gender empowerment. On October 1, USAID disbursed $29 million to the FATA Secretariat for
    the construction of roads in South Waziristan Agency, enabling these efforts to progress.

    USAID and the Government of Pakistan signed an amendment to the Khyber Pakhtunkhwa
    Reconstruction Program agreement on December 9, 2011, providing $31.5 million to fund Provincial
    Reconstruction, Rehabilitation and Settlement Authority capacity strengthening, flood-damaged
    infrastructure projects in Swat, and community water and sanitation projects that will serve an
    estimated 75,000 people. A subdistrict construction project will provide administrative capacity to
    the local government in Swat. Slow progress on school construction was addressed at several
    meetings with Provincial Reconstruction, Rehabilitation and Settlement Authority representatives,
    provincial officials, and the engineering department, leading to the acceleration of construction work
    on 24 schools in Malakand Division.

    In November, USAID procured school supplies and equipment for schools being constructed in
    Malakand Division. USAID expects to award a contract to a local vendor in January 2012 under the
    Khyber Pakhtunkhwa Reconstruction Program.

    Through the USAID Khyber Pakhtunkhwa Reconstruction Program, the procurement of school
    supplies and equipment on behalf of the Khyber Pakhtunkhwa Elementary and Secondary Education
    Department for the schools being constructed in Malakand Division began in November, and an
    award to a local vendor was anticipated in January 2012.

    The water and sanitation assessment report of Peshawar Town 1 completed in September 2011
    under the Municipal Services Program6 was shared with provincial and municipal authorities and key
    stakeholders. A forthcoming workshop in Peshawar will convene the local government and
    Government of Khyber Pakhtunkhwa to discuss the report and its impact on Municipal Services
    Program planning and implementation, the establishment of new municipal government entities in
    Peshawar, and the feasibility of various options to supply surface water to Peshawar.

    The World Bank held two training workshops on the fiduciary arrangements under Multi-Donor
    Trust Fund projects in Peshawar on November 30 and December 1, 2011. These workshops were

6
 The Municipal Services Program has a cross-cutting focus. Accordingly, summary information about the program
appears in Table 7.


                                                                                                          30
   attended by officials and project teams working on projects in Khyber Pakhtunkhwa and FATA. The
   Senior Minister for Khyber Pakhtunkhwa, Additional Chief Secretary, and Secretary for Planning and
   Development attended the opening and closing sessions.

USAID also reported problems that continue to affect the implementation of its stabilization programs:

   In South Waziristan, electrification and water infrastructure projects continue to be affected by low
   technical capacity. USAID personnel are providing the FATA Secretariat and its contractor with
   technical support to address these deficiencies and accelerate progress.

   Security in some vulnerable areas has hindered project implementation. On November 18,
   following months of negotiations, the Pakistani Frontier Corps approved access for a USAID
   implementing partner’s construction workers to break ground in the community of Mamad Gat,
   Mohmand Agency. The new facility they are building under the FATA Child Health Project is
   expected to serve 10,000 beneficiaries a year when completed. Work stopped following the cross-
   border incident along the Afghanistan-Pakistan border on November 24, but resumed in early
   December.

   The Government of Pakistan’s refusal to certify the FATA Child Health Project implementer’s duty-
   free importation of a $50,000 consignment of USAID-financed pharmaceuticals hindered program
   performance. Following a request from USAID/Pakistan, the Economic Affairs Division of the
   Pakistani Ministry of Finance and Economic Affairs provided assistance to clear the shipment through
   customs. To help avoid future delays of this kind, USAID/Washington’s Office of Global Health
   approved a waiver allowing procurement of pharmaceuticals from local sources. The Pakistani
   Government indicated in mid-December that it is committed to resolving this issue.

   The lack of women’s participation in development programs continues to be a challenge.
   USAID/Pakistan engaged technical support from USAID/Washington’s Office of Afghanistan and
   Pakistan Affairs to develop a scope of work for a gender analysis that will fully review the FATA-
   Khyber Pakhtunkhwa stabilization portfolio in light of new Agency policies regarding gender,
   stabilization, and countering violent extremism.

NAS. NAS has five programs that support improved security, legal reforms, and counternarcotics
efforts. With the exception of limited direct assistance to Pakistani NGOs in support of demand
reduction efforts, NAS projects are all implemented in partnership with the Government of Pakistan.
Partners include the Ministry of Narcotics Control, Ministry of Interior, FATA Secretariat, Pakistan
police, and civilian law enforcement agencies.

NAS reported the following developments in its current programs:

   Rule of Law Program. In Karachi and Islamabad, 129 prosecutors were trained under the program.



                                                                                                     31
    Police Program. During the quarter 667 officials from across Pakistan were trained under the
    program. This total includes 72 law enforcement personnel from Khyber Pakhtunkhwa and
    Balochistan who completed basic training and received instruction on the conduct of drug
    investigations.

    Aviation Program. During the quarter, the NAS-supported Air Wing Project provided more air
    assistance to Pakistani law enforcement than ever before. Helicopters formerly used only in the
    training of Pakistani police were used for the first time in operations, and the Air Wing was called
    upon to support medical and casualty evacuations following an ambush of Frontier Corps troops. In
    total, the Air Wing flew 830.5 hours over the quarter.

    Infrastructure Program. NAS is assisting with the construction of border outposts along the
    Afghanistan border. Construction work on 8 outposts has been completed, and the work on the
    remaining 28 is in progress. NAS is also working on improving living accommodations for Levies
    Force personnel and has completed three related projects in FATA.

    Civilian Law Enforcement Reform Program. NAS delivered $3.5 million worth of equipment to
    Pakistani law enforcement agencies across the country.

NAS also reported that feedback on training provided to Pakistani police, prosecutors, and other law
enforcement agency personnel has been positive and that demand for future instruction is growing.
NAS indicated that infrastructure development projects and commodity assistance to Pakistan police
and other law enforcement agencies have contributed to the effectiveness of the recipient agencies in
enforcing law and order and countering militancy and extremism in the country.

NAS reported that travel restrictions, delays in the clearance of planning documents, and the difficult
security environment add complexity to the operating environment. Delays in the ratification of an
amendment to a letter of agreement for additional funds set back some program efforts. Although
NAS’s Pakistani staff members have been harassed by representatives of the Government of Pakistan in
the past, no such incidents of harassment were reported during the quarter. However, some
infrastructure projects have faced planning difficulties and procedural complications. NAS is engaging
the provincial bureaucracy in resolving these issues.

RSO. RSO contributes to improved security and legal institutions in Pakistan through antiterrorism
assistance. RSO provides a full range of tactical and investigative courses and support to increase the
capacity and capabilities of Pakistani law enforcement officials from all of its provinces and the Frontier
Constabulary. During the quarter, RSO delivered seven training courses to 156 officers.

RSO noted that obtaining Pakistan visas for instructors in a timely manner has been difficult. Several
courses have been postponed because instructors were unable to obtain a visa by the scheduled date of
instruction. In addition, equipment grants have not been distributed since March 2011 because of
limitations in Pakistani Government cooperation.

                                                                                                        32
Cross-Cutting Priorities: Good Governance, Gender Equity, and
Greater Transparency

The cross-cutting priorities of U.S. Government assistance—improved governance, gender equity, and
greater transparency—have been included in the discussion of sectoral assistance programs as
appropriate. The U.S. Government also supports programs focused exclusively on these areas.

USAID has 13 programs designed to improve governance, gender equity, and transparency (Table 7).
USAID’s programs in this category of assistance include a hotline for the public to register complaints,
support to organizations that oppose domestic violence and gender discrimination, and civil society
support. In addition to its ongoing programs, USAID is planning a program to monitor the upcoming
national elections.

      Table 7. USAID Governance, Gender Equity, and Transparency Programs as of
                          December 31, 2011 (Unaudited)

                                                                                          Budgeted
       Name                 Description        Start    End        Implementing
                                                                                          Amount
                                               Date     Date         Partner
                                                                                             ($)
Construction of         Supports
Pakistan Institute of   construction of the
                                               3/10     6/12     Habib Rafiq                9,300,000
Parliamentary           Parliamentary
Services Building       Institute

                        Allows citizens to
Anti-Fraud Hotline      report waste, fraud,
                                                                 Transparency
Project / Anti-         and abuse of U.S.
                                               1/09     9/15     International-             1,150,000
Corruption              Government funds
                                                                 Pakistan
Program                 through a free
                        hotline

                        Conducts three
                                                                 International
Political Polling       nationwide public      11/10    1/12                                  500,000
                                                                 Republican Institute
                        perception polls

                        Makes small grants
                        to organizations
Gender Equity
                        opposing domestic      8/10     8/15     Aurat Foundation          14,368,429
Program
                        violence and gender
                        discrimination




                                                                                                        33
                                                                                 Budgeted
       Name               Description         Start   End       Implementing
                                                                                 Amount
                                              Date    Date        Partner
                                                                                    ($)
                      Makes small awards
                      for community
Small Grants /                                                National Rural
                      initiatives that        8/10    8/15                       14,000,000
Ambassador's Fund                                             Support Program
                      support U.S. foreign
                      assistance objectives

                      Makes small grants
                                                              Trust for
                      to civil society
Citizens' Voice                                               Democratic
                      projects that support   5/11    9/15                       10,000,000
Project                                                       Education and
                      U.S. foreign
                                                              Accountability
                      assistance objectives

                      Improves
                      transparency and
Political Parties                                             National
                      accountability of
Development                                   7/11    7/15    Democratic          4,500,000
                      Pakistani political
Program                                                       Institute
                      parties to their
                      constituents

                      Conducts a variety of
                      exchange programs
                      and in-country
                                                              DOS, Bureau of
Exchanges/Strategic   English language
                                              7/05    2015    Educational and     9,223,500
Communications        training that support
                                                              Cultural Affairs
                      strategic
                      communications
                      objectives

                      Provides missionwide
Independent           support for                             Management
Monitoring and        monitoring,             6/11    6/16    Sciences            7,000,000
Evaluation Contract   evaluation, and the                     International
                      PakInfo system

                      Provides support for
                      the Office of the
Support to Special
                      Special Envoy of the
U.N. Envoys to                                6/09    12/11   U.N. Secretariat    2,030,980
                      Secretary General
Pakistan
                      for Assistance to
                      Pakistan




                                                                                              34
                                                                                         Budgeted
       Name                   Description          Start   End      Implementing
                                                                                         Amount
                                                   Date    Date       Partner
                                                                                            ($)
                          Promotes religious
                          tolerance, peaceful
                          interfaith dialogue,
Transfer to USIP                                   8/11    8/11   USIP                     3,000,000
                          and contributes to
                          efforts to counter
                          violent extremism

                          Provides
Capacity Building                                                 American University
                          collaborative capacity
for Human Rights                                   1/09    9/11   Washington College       2,355,347
                          building for human
and Gender                                                        of Law
                          rights and gender

                                                                  Provincial
                          Improves basic                          Government’s
Municipal Services
                          municipal services       7/10    7/15   Planning and            90,000,000
Program*
                          delivery                                Development
                                                                  Departments

Source: USAID/Pakistan.
* This program now includes the Jacobabad and Peshawar Water Program reported in the previous quarterly
  report under USAID health sector programs.


USAID provided examples of progress and success in its governance assistance programs:

    In October, technical review committees of the Governments of Sindh and Khyber Pakhtunkhwa
    approved planning commission documents for USAID’s Municipal Services Program. These
    documents will now be sent to the executive committee of the National Economic Council, which is
    chaired by the Minister of Finance, for final approval. The establishment of project management
    units by the provincial governments is the next major milestone needed to continue to move
    toward implementation.

    USAID launched the Citizens’ Voice Project, announcing the first grant cycle on November 3, 2011.
    The program is intended to foster citizen engagement with state institutions on key development
    issues through advocacy, government oversight, public awareness campaigns, and public-private
    partnerships. Up to $2.4 million will be awarded next quarter for projects in three areas: citizen
    oversight of municipal services, energy sector reform, and improved water rights. Public
    information sessions were held in Islamabad, Lahore, and Karachi, drawing 250–400 participants
    each. Applications were due on December 15, 2011, with awards planned in early 2012.




                                                                                                       35
    USAID continues to collaborate with the Embassy on small grant applications and Ambassador Fund
    grant applications. To date, 38 awards, totaling $3,904,388, have been executed. Some of the
    newest projects will rehabilitate or rebuild ten village water/drinking systems in Lower Dir (Khyber
    Pakhtunkhwa) and construct 105 biogas plants in Sarghoda District (Punjab). Other projects include
    building 20 community schools for 2,000 students in Jaffarabad and Naseerabad (Balochistan) as well
    as mobilizing parent-teacher management groups and providing maternal care services to pregnant
    women in Khyber Pakhtunkhwa by training specialized birth attendants and raising awareness about
    steps to safe motherhood.

    The Gender Equity Program made 22 awards in November to NGOs to support public outreach
    and advocacy activities during ―16 Days of Activism,‖ leading up to International Women’s Day in
    March 2012. Grants will support the development of local action plans to promote awareness of
    women’s rights, address violence against women, and organize district-level public events to increase
    women’s empowerment. To date, the program has awarded 76 grants valued at more than
    $3.5 million.

USAID also reported challenges to implementing programs for improved governance and gender equity:

    Women’s equal participation in all of Pakistan’s development programs remains a challenge.

    Stimulating citizen-government partnerships for improved program planning and implementation is
    necessary yet challenging, because it requires building confidence between and among public and
    private actors.

    Working with provincial governments to design and implement government-to-government
    agreements remains a very time-consuming process.

PAS. As part of the U.S. Embassy’s strategic communication efforts, PAS is expanding the in-country
English Language Access Program. As of December 2011, this after-school program had provided
English instruction to 6,000 Pakistani students between the ages of 14 and 15. Using Pakistani
interlocutors, the program is expanding into regions that are of strategic interest, including Quetta and
other regions of Balochistan as well as Khyber Pakhtunkhwa.


Assistance to Pakistani Institutions

To ensure greater Pakistani responsiveness and increase the sustainability of civilian programs, the
United States plans to implement more programs through Government of Pakistan institutions, including
national and provincial governments and NGOs.7 The purpose of this shift is to:

7
 The Enhanced Partnership with Pakistan Act of 2009 encourages appropriate use of Pakistani firms and NGOs to
implement the programs authorized under Title I of the act (Section 101(c)(3)).


                                                                                                          36
       Align programs with locally identified priorities.

       Build Pakistanis’ sense of ownership of programs.

       Build Pakistani institutional and leadership capacity for better fiscal management.

       Promote decentralization to more actively engage provincial and local partners and beneficiaries.

       Deliver on-budget assistance8 to promote transparency, harmonization, and better budget planning
       by the Government of Pakistan.

       Reduce costs.

USAID made 61 awards totaling more than $1.268 billion during FY 2010, and 42 awards totaling
$439.5 million during FY 2011 to Pakistani institutions. USAID reported making 17 awards totaling
approximately $150.3 million during the reporting period (Table 8). Awards made by USAID fall into
one of the following four categories: budget support (cash transfers), direct funding for federal
government projects, direct funding for provincial government projects, and awards to Pakistani NGOs.

          Table 8. Assistance to Pakistani Institutions Since October 1, 2011 (Unaudited)

                                                                                  Number of         Value ($) of
    Implementing Partner, Project
                                                                                   Awards           Obligations

    Direct Funding for Government Projects                                              13          137,768,255

    FATA Secretariat, Sararogha-Janjal Road                                              1             10,868,255

    FATA Secretariat, Kundiwam Dam and Dhana Irrigation Projects SWAT                    1             18,000,000

    FATA Secretariat, Transmission Line of 132 KVA from Gomal Zam Dam                    1              2,400,000

    FATA Secretariat, Barang Road and Silay Patay Bridge in Bajaur                       1              2,000,000

    FATA Secretariat, Kaur-Wana Road, Repair of Flood Damages                            1              6,254,588




8
 Delivering U.S. assistance through Pakistan’s own budgetary, spending, and accounting systems as much as possible is
expected to help the Government of Pakistan meet the fiscal targets required by the International Monetary Fund and
raise Pakistanis’ awareness of where U.S. funds are going and how they harmonize with resources from the
Government of Pakistan and other donors. On-budget assistance should also help reduce disruptions in
implementation by enabling federal and provincial governments to improve budget planning and cash-flow
management.


                                                                                                                   37
                                                                         Number of        Value ($) of
 Implementing Partner, Project
                                                                          Awards          Obligations

 FATA Secretariat, Tank-Makeen Road, Repair of Flood Damages                    1            4,090,215

 FATA Secretariat, Tank-Makeen, Ahmad WAM Tunnel                                1              279,740

 FATA Secretariat, Tank-Makeen, Kotkai Tunnel/Bypass                            1            1,651,558

 FATA Secretariat, Reconstruction of Jandola Bridge                             1            4,125,425

 FATA Secretariat, Jandola-Sararogha, Repair of Bridges                         1            1,158,820

 FATA Secretariat, Sararogha-Makeen, Repair of Bridges                          1            6,939,654

 WAPDA, Gomal Zam Multipurpose Dam Project                                      1           40,000,000

 Sindh Provincial Ministry of Education                                         1           40,000,000

 Awards to Pakistani NGOs                                                       4          12,542,537

 Transparency International-Pakistan, Anti-Fraud Hotline                        1              360,000

 Rural Support Programmes Network, Emergency Relief and Early Recovery
                                                                                1              397,000
 for Pakistan Flood Affectees

 Agribusiness Support Fund, USAID’s Agribusiness Project                        1           10,300,000

 Associates in Development, Monitoring and Evaluation for
                                                                                1            1,485,537
 FATA Quick Impact Projects

 Total                                                                         17         150,310,792

Source: USAID/Pakistan.


Prior to disbursing funds, USAID’s Office of Financial Management performs preaward assessments of all
prospective partner organizations. The assessments examine organizational and management structure,
accounting, financial management systems, internal control, technical capabilities, and quality assurance
capabilities, as well as organizations’ policies, procedures, and practices for effective and efficient
management of USAID/Pakistan resources. To date, USAID has completed 115 preaward assessments.
The assessment of National Engineering Services Pakistan (Private) Limited was completed this quarter.




                                                                                                         38
Staffing
The U.S. Mission in Pakistan—including USAID and Embassy components—increased staffing levels in
Islamabad, maintained its staffing level at the regional office in Lahore, but experienced a decrease in
staffing in Peshawar and Karachi.

As shown in Table 9, USAID reported a total of 222 staff (46 U.S. direct hires and 176 others) as of
December 31, 2011. USAID mission management determined not to fill all vacancies during the quarter
because of limited availability of office facilities. As the temporary USAID office building nears
completion, the USAID mission plans to expand recruitment to achieve sufficient personnel levels to
implement portfolio responsibilities without relying on temporary-duty employees or on support from
Washington, D.C. According to the Pakistan Assistance Strategy Report, USAID, as the lead and largest
manager of assistance funds among U.S. Government agencies, will need to increase its project
management, legal, financial management, and procurement staff significantly. With an FY 2012 target of
296 staff, USAID/Pakistan remains understaffed by 74 positions.

                     Table 9. USAID Staffing in Pakistan as of December 31, 2011

                                                                                           Difference from
         Category             Islamabad    Peshawar       Lahore      Karachi      Total   September 31,
                                                                                                 2011

  U.S. direct hire                40            3            3            0          46             -2

  U.S. personal services          17            3            1            0          21            +1
  contractors

  Third-country nationals          8            1            0            0           9            +1

  Foreign Service Nationals      104           20           10            5         139            +2
  (Pakistani staff)

  Eligible family members          5            0            0            0           5             0

  Long-term temporary-             2            0            0            0           2             0
  duty staff*
  Total Staff                    176           27           14            5         222            +2
  Staff Target 2012                                                                 296

  Staff Shortfall                                                                    74

 Source: USAID/Pakistan.

* USAID/Pakistan reported that long-term temporary-duty staff (defined as being in Pakistan for a year) filling
   vacant positions counted toward the total number of USAID/Pakistan positions.


                                                                                                            39
PAS personnel in Pakistan are distributed across offices in Islamabad, Karachi, Lahore, and Peshawar. In
total, PAS had 26 U.S. direct hires and 54 Pakistani staff on board as of December 31, 2011. As of that
date, NAS had 6 U.S. direct hires, 13 U.S. personal services contractors, and 69 Pakistani staff. For its
part, RSO had 6 U.S. direct hires and 35 Pakistani staff by the end of the reporting period.




                                                                                                      40
Risks and Mitigation Strategies
U.S. Government agencies and oversight entities have identified risks that could jeopardize the U.S.
Government’s assistance program in Pakistan and identified accompanying mitigation strategies. The
following challenges facing the civilian assistance program remained pertinent during this quarter:

   Political risks. Pakistan continued to experience political, economic, and security-related turmoil.
   Such turmoil can limit the progress by the Government of Pakistan and the U.S. Government in
   delivering an effective assistance program. In particular, in response to the Government of Punjab’s
   recent announcement that it will no longer accept direct U.S. Government assistance, USAID has
   cancelled all government-to-government programs in this province and is working to reprogram the
   funds originally slated for Punjab.

   Operating restrictions. Implementation and monitoring of USAID projects have been hindered by
   stricter Government of Pakistan requirements for travel outside of Islamabad and provincial
   capitals. Visits to some areas require from several days’ to 3 weeks’ prior notification and
   sometimes the approval of the Ministry of Foreign Affairs; these restrictions delay and often lead to
   the cancellation of site visits. Obtaining visas and visa renewals continues to hamper recruitment
   and lower staff morale. As of December 19, 2011, 37 assignment visas, some of which had been
   pending as long as 9 months, remained unissued. Further, USAID personnel have been harassed by
   local authorities.

   Resistance to economic reform. Entrenched interests may resist policy reforms needed to transform
   the economy. Critical to economic reform are the governance, accountability, and financial
   sufficiency of power sector institutions. Political interference continues to undermine the decision-
   making ability of power company managers and regulatory officials. According to USAID, if Pakistan
   does not implement fundamental reforms, assistance from the United States and other donors will
   have limited long-term effects.

   Vulnerability to natural disasters. Flooding and the resulting damage have delayed implementation of
   projects in flood-affected areas. Because Pakistan is prone to natural disasters such as flooding, this
   is a regular risk. To help Pakistan address this risk, USAID supports programs in water storage and
   management, including the surface water management program for Balochistan and Gomal Zam
   Dam, which contribute to flood mitigation efforts. USAID has ongoing efforts through OFDA to
   strengthen the disaster response and risk reduction capacity of Pakistan’s NDMA.

   Adverse environmental impact.    USAID/Pakistan conducts environmental assessments before
   disbursing funds for projects. These assessments—for example, of the road from Tank to Wana
   and Kaur to Makeen in South Waziristan—sometimes identify concerns and potential risks regarding

                                                                                                       41
    the projects’ impact on the environment or communities. To address these environmental
    concerns, USAID will identify and take the necessary steps to ensure these risks can be mitigated
    before continuing with the activity.

    Leadership turnover. High turnover in entities of the Government of Pakistan has affected planning,
    coordination, and implementation of programs. Senior managers at power companies and senior
    government officials at the Ministry of Water and Power are usually political appointees who spend
    less than 2 years in their positions. The devolution of federal health, education, and agriculture
    programs to provinces with insufficient guidance on the expected roles and responsibilities of the
    federal, provincial, and district governments, is also complicating implementation. USAID will
    continue to work closely with all government counterparts as necessary.

    Limited institutional capacity. In FATA, Khyber Pakhtunkhwa, Sindh, and Balochistan, where there is
    limited institutional capacity and insufficient staff with experience in financial and procurement
    management, extra efforts must be made to mitigate the risk of resources being lost through
    inefficiency, theft, or general lack of capacity to handle large amounts of funding.

    Inadequate financial management in Government of Pakistan institutions. The U.S. Government and the
    Government of Pakistan have collaborated to introduce special accounts for budget support
    provided by the United States to address financial challenges and maintain a high degree of
    accountability. However, financial management, accountability, and reporting challenges continue.

    Security risks. Security concerns continue to reduce the ability of U.S. Government personnel to
    conduct direct monitoring and evaluation in conflict-affected areas, particularly Peshawar, FATA,
    Khyber Pakhtunkhwa, and Balochistan, and to engage Pakistani officials in project design. Following
    the incident on the Pakistan border in late November, USAID partners have been under severe
    scrutiny and, sometimes, threat for their association with the U.S. Government. As a result,
    program events have been rescheduled, changed, or cancelled.

As described above, security conditions present an ongoing challenge for civilians providing assistance in
certain vulnerable areas, as well as for USAID’s ability to monitor and evaluate programs. USAID is
meeting the challenge by expanding its regional office in Lahore and using Pakistanis to conduct site
visits. USAID/Pakistan awarded an independent monitoring and evaluation contract and now is in the
process of planning monitoring and evaluation activities. Services provided under the contract include
routine monitoring, training on data entry for project performance, mapping using a geographic
information system, and conducting evaluations and assessments. The integrity of the data provided by
USAID/Pakistan’s implementing partners, which serve as the basis for annual performance reporting, will
be verified under the contract. Additionally, USAID’s Office of Afghanistan and Pakistan Affairs, in
conjunction with USAID/Pakistan, is developing a database (PakInfo) that includes indicators that USAID
uses to measure the progress of its programs, as well as the indicators that each implementing partner
uses to track progress.



                                                                                                       42
To mitigate the fiduciary risk of working with local institutions, USAID has hired accounting firms to
conduct preaward assessments to ensure that potential recipients of USAID assistance meet U.S.
transparency and accountability standards. These assessments identify partner weaknesses and areas of
improvement that are agreed to and documented in a risk management framework. USAID then
actively works with partners to build capacity and mitigate risks. In addition, USAID has begun to rely
increasingly on fixed-amount reimbursable agreements as a mechanism for assistance programs
implemented through Pakistani institutions. This mechanism requires milestones to be achieved and
independently verified before payments are processed.

USAID has also recently established an Assessment and Strengthening Program that is designed to build
the institutional capacity of local Pakistani organizations. The program provides a means to identify,
address, and validate responses to institutional capacity weaknesses within public sector, civil society,
and for-profit institutions. It enables USAID/Pakistan to work with a wide range of local implementing
partners and host-government institutions in an effective, transparent, efficient, and responsive manner
without having to resort to one-off consultancies or rely on support arrangements provided on a
project-by-project basis.

The capacity-building process focuses on specific organizational needs identified through preaward
assessments and on overall national development objectives and requirements. Related efforts include
developing dedicated project management units within the government, improving policies and
procedures, reviewing and strengthening organograms, ensuring adequate internal controls, improving
financial management and procurement processes, increasing human resource capacity through on-the-
job technical assistance, and providing relevant tools and products for carrying out government
functions.

In addition to these USAID strategies, the OIGs for USAID and DOS have taken the following steps to
ensure that U.S. Government funds are protected against waste and theft:

    Maintaining an in-country oversight presence. As of December 31, 2011, USAID OIG had
    14 permanent staff in Islamabad (9 U.S. direct hires and 5 Foreign Service National employees),
    supplemented by those on temporary duty. To support its Pakistan portfolio, DOS OIG had three
    staff members in Islamabad.

    Expanding the use of independent Pakistani public accounting firms to conduct financial audits of funds
    provided to Pakistani NGOs. As of December 31, 2011, USAID OIG had a roster of 27 eligible audit
    firms in Pakistan to call on. Since the passage of the Enhanced Partnership with Pakistan Act on
    October 15, 2009, USAID OIG has nearly doubled the size of this roster.

    Providing training to Pakistani public accounting firms and to the Office of the Auditor General. USAID OIG
    training for Pakistani public accounting firms and the Office of the Auditor General covers the
    standards and requirements for financial audits of U.S. Government funds. In FY 2011, USAID OIG
    provided this training to 15 employees of the Office of the Auditor General and 73 participants from

                                                                                                            43
    21 public accounting firms and 16 NGOs. USAID OIG plans to hold two 2-day programs in January
    2012 for 80 employees of public accounting firms and the Office of the Auditor General.

    Providing training to NGOs, government organizations, and USAID contracting and agreement officers’
    technical representatives and financial analysts. USAID OIG training to these groups addresses the
    standards and requirements for financial audits of U.S. Government funds. To date, USAID OIG has
    provided training seminars to 55 staff members at USAID/Pakistan and 26 staff from ten provincial
    government ministries. USAID OIG plans to hold two 1-day programs in February 2012 for NGOs,
    government organizations, and USAID contracting and agreement officers’ technical representatives
    and financial analysts.

    Helping the Office of the Auditor General conduct financial audits. USAID OIG helps the office conduct
    financial audits of funds provided by USAID/Pakistan to Pakistani Government entities by providing
    continued support during the audit process for any audit-related matters. USAID OIG also reviews
    the final reports to ensure that the audits were performed in accordance with OIG Guidelines for
    Financial Audits Contracted by Foreign Recipients, dated February 2009.

    Working with Pakistan’s National Accountability Bureau (NAB).9 USAID OIG established a working
    relationship with NAB in early 2010 and continues to coordinate efforts and collaborate on
    investigations.

    Collaborating with USAID/Pakistan to establish and maintain the Anti-Fraud Hotline in Pakistan. As the
    only one of its kind in Pakistan, the hotline provides a unique and useful tool for Pakistani citizens to
    provide feedback to USAID, its implementing partners, and the Government of Pakistan. This
    quarter, the hotline received 489 complaints through various channels—e-mail, Internet, facsimile,
    mail, and in person. These complaints relate to projects funded by USAID and by other
    organizations, including the Pakistani Government, bilateral donors, and international organizations.

    Providing fraud awareness briefings and expanding investigative coverage. USAID OIG investigators also
    conduct fraud awareness briefings to alert participants—employees, contractors, and grantees—to
    fraudulent practices and schemes and to provide guidance on how to report fraud. In FY 2011,
    USAID OIG gave 20 fraud awareness briefings in Pakistan to 424 attendees. During the reporting
    period, OIG special agents in Pakistan provided one additional fraud awareness briefing attended by
    20 auditors from the Government of Pakistan.

    Coordinating audits and investigations with other U.S. agencies. USAID OIG works with other OIGs,
    GAO, and law enforcement agencies including the FBI’s International Corruption Unit, the National
    Procurement Task Force, the Financial Crimes Enforcement Network, and the U.S. Embassy’s Legal


9
 NAB is the primary law enforcement agency in Pakistan responsible for investigating white-collar crime and public
corruption, and it is Pakistan’s only law enforcement agency authorized to conduct investigations in FATA.


                                                                                                               44
Attaché Office to coordinate audit and investigative work with the aim of eliminating duplication and
maximizing the efficient use of government resources.




                                                                                                  45
Oversight Status
USAID Office of Inspector General

USAID OIG oversees foreign assistance programs administered by USAID, the Millennium Challenge
Corporation, the United States African Development Foundation, and the Inter-American Foundation.
USAID OIG has strengthened its focus on Pakistan since USAID reopened its Pakistan mission in 2002.
In recent years, OIG has covered a wide array of USAID programs in Pakistan, for relief and
stabilization, reconstruction, sustainable development, education, and health care. USAID OIG’s
oversight activities include performance audits, financial audits, and investigations.

Work Completed

From October 1 to December 31, 2011, USAID OIG completed two performance audits and two
financial audits:

   Audit of USAID/Pakistan’s Firms Project (Report No. G-391-12-001-P, November 3,
   2011). This audit concluded that, as of May 2011, the Firms Project was not on track to achieve its
   main goal to expand economic opportunities through sales and employment. Despite the mission’s
   attempt to increase sales and employment in a number of sectors—leather, livestock, textile, dates,
   and mangoes—the audit found no measureable increases in sales or employment. Project activities
   did not increase sales or employment in the leather, livestock, textile, or date sectors because of
   shifts in U.S. Government strategy that resulted in the cancellation of these activities. Efforts to
   boost sales and jobs in the mango sector were stalled, and activities to improve competitiveness
   through economic policy reform were behind schedule.

   The report made nine recommendations to address related issues, including determining the
   allowability of more than $1.3 million in questioned costs. USAID developed a plan to address eight
   of these recommendations, and has taken steps to close five of them.

   Audit of USAID/Pakistan’s Energy Efficiency and Capacity Program (Report No. G-391-
   12-002-P, November 23, 2011). This audit concluded that the program was substantially short
   of its goal of replacing 11,000 pumps to reduce energy demand before its expiration date of March
   2012. Two years after it began, the farmers had replaced 963 pumps (9 percent of the 11,000
   planned). Replacing this number of pumps was inefficient: USAID’s replacement cost increased
   from the original estimate of $1,400 per pump to nearly $8,500 because contractor administrative
   fees were distributed over 963 pumps replaced rather than the anticipated 11,000.

   The report recommended that USAID develop a plan to ensure that program goals would be met
   should the mission decide to continue the program beyond its March 2012 expiration date. A
   management decision has been reached on this recommendation. A second recommendation to


                                                                                                    46
   modify the underlying contract to reflect substantial changes made to certain activities is now
   closed.

   Financial Audit of Budgetary Support, USAID/Pakistan Program Assistance Agreement
   No. 391-AAG-012-IL-02, Managed by the Benazir Income Support Program (BISP), for
   the Period From September 30, 2009, to March 31, 2011 (Report No. G-391-12-001-R,
   October 26, 2011). This audit covered budgetary support of $85 million to the Government of
   Pakistan. The Auditor General concluded that the fund accountability statement presents fairly, in
   all material respects, program revenues and costs incurred under the agreement for the period
   audited. The Auditor General did not identify any questioned costs, material internal control
   weaknesses, or material instances of noncompliance in its audit report. However, in a separate
   letter issued to the management of BISP, the Auditor General made a number of related
   observations, including that at least $38 million had not been disbursed to beneficiaries as of June
   2011. Periodic reconciliations had not been made by the disbursing organizations to facilitate the
   disbursement of these funds to eligible beneficiaries, and the funds remained in accounts maintained
   by the Pakistan Post Office. The report made one recommendation.

   Financial Audit of Budgetary Support to the Government of Pakistan, USAID/Pakistan
   Program Assistance Agreement No. 391-005-ES-07, Managed by the Ministry of
   Finance for the Year Ended June 30, 2008 (Report No. G-391-12-002-R, November 3,
   2011). This audit covered budgetary support of $200 million provided to the Government of
   Pakistan. The Auditor General concluded that the fund accountability statement presents fairly, in
   all material respects, program revenues, costs incurred and reimbursed, and commodities and
   technical assistance directly procured by USAID in accordance with the terms of the agreement.
   The audit did not identify any questioned costs, material internal control weaknesses, or material
   instances of noncompliance, and the report did not make any recommendations.

Work Under Way

As of December 31, 2011, three USAID OIG performance audits and five financial audits were in
progress:

   Audit of USAID’s Transition Initiative Program. This audit will determine whether the
   program has identified basic community needs and implemented small-scale projects that support
   the Government of Pakistan’s efforts to improve relations with citizens living in areas suffering from
   instability and extremism.

   Audit of USAID/Pakistan’s Pre-Service Teacher Education Program. This audit will
   determine whether the program is improving basic education through improved teacher education.

   Audit of USAID/Pakistan’s Empower Pakistan Entrepreneurs Program. This audit
   objective is to determine whether USAID/Pakistan’s Empower Pakistan Entrepreneurs Program is
   increasing the incomes of at least 75,000 microentrepreneurs and small enterprise owners.


                                                                                                      47
   Financial Audit of USAID Resources Managed by the Ministry of Economic Affairs and
   Statistics (Economic Affairs Division) Under Cash Transfer Grant Agreement, Activity
   No. 391-AAG-012-IL-01 for Internally Displaced Persons for the Period From July 1,
   2009, to June 30, 2010.

   Financial Audit of USAID Resources Under the Merit and Needs-Based Scholarship
   Project Managed by the Higher Education Commission for the Period From July 2,
   2004, to June 30, 2010.

   Financial Audit of USAID Resources Managed by the Ministry of Economic Affairs and
   Statistics (Economic Affairs Division) Under Cash Transfer Grant Agreement, Activity
   No. 391-012-IL-03 Through the Higher Education Commission for Universities and
   Technical Education in North West Frontier Province (Khyber Pakhtunkhwa), for the
   Period From September 30, 2009, to June 30, 2010, and Program Implementation
   Letter No. 11: Financial Assistance for the USAID-Pakistan Fulbright Program
   Between USAID and the Higher Education Commission, for the Period From
   October 15, 2009, to June 30, 2010.

   Financial Audit of USAID Grant Funds for the Anti-Fraud Hotline and Anti-Corruption
   Project Phase II Managed by Transparency International for the Year Ended June 30,
   2011.

   Financial Audit of Rupee Trust Fund Managed by USAID/Pakistan for the Period
   October 1, 2009, to June 30, 2011.

Work Planned

In addition to those completed and under way, USAID OIG plans to conduct seven performance audits
during FY 2012:

   Audit of USAID/Pakistan’s Design for Sustainability in the Jamshoro Thermal Power
   Station Repair and Maintenance Activity. This audit will determine whether USAID/Pakistan
   has built sustainability into the Jamshoro Thermal Power Station Repair and Maintenance Activity.

   Follow-Up Audit of USAID/Pakistan’s Livelihood Development Program for the Lower
   Region of the Federally Administered Tribal Areas. The audit will determine whether
   USAID/ Pakistan implemented the recommendations from the December 2010 audit and whether
   those actions were effective.

   Audit of USAID/Pakistan’s Assessment and Strengthening Program for Local
   Organizations and Government of Pakistan Entities. This audit will determine whether
   USAID/Pakistan’s Assessment and Strengthening Program is improving the capacity of local
   organizations and Government of Pakistan entities to responsibly manage USAID funds.


                                                                                                 48
   Audit of USAID/Pakistan’s Benazir Income Support Program. This audit will determine
   whether USAID/ Pakistan’s cash transfer to BISP has reached the intended beneficiaries.

   Audit of USAID/Pakistan’s Gomal Zam Multipurpose Dam Project. This audit will
   determine whether USAID/Pakistan’s Gomal Zam Multipurpose Dam Project is on track to meet its
   budget and timelines.

   Audit of USAID/Pakistan’s Monitoring and Evaluation Program. This audit will determine
   whether USAID/Pakistan is using results from its monitoring and evaluation program to manage its
   portfolio.

   Audit of USAID/Pakistan’s Reconstruction Activities in Flood-Affected Areas. This audit
   will determine whether USAID/Pakistan’s reconstruction activities in the flood–affected areas are
   being implemented effectively.

As of December 31, 2011, 18 financial audits of USAID funds were in the planning stage.

Investigative Work and the Anti-Fraud Hotline

As of December 31, 2011, USAID OIG had 20 open investigations pertaining to Pakistan. During the
reporting period, USAID OIG investigators closed one case.

The following significant USAID OIG case developments took place between October 1, 2011, and
December 31, 2011:

   Nine Education Officials Suspended for Theft and Diversion of Commodities From
   Food for Education Program in Sindh Province. WFP’s Food for Education Program gives
   parents an incentive for their children, especially girls, to attend school by providing one can of
   fortified cooking oil to each student who meets monthly attendance requirements. The Anti-Fraud
   Hotline received 17 complaints regarding alleged theft or diversion of fortified edible oil intended
   for primary school students under the program in Sindh Province. After coordinating with USAID
   OIG, WFP dispatched a monitoring team to the location, reviewed documentation, conducted
   interviews with the students and community members and then took appropriate action to address
   the situation.

   Of the 17 complaints, four related to schools receiving less oil than originally anticipated because of
   an increase in the number of students from the time the school registered to participate in the
   program and the time of distribution. School officials had either withheld the oil from all students
   or attempted to share the oil in order to ensure everyone received their share. Six of the
   complaints alleged school officials had stolen cooking oil meant for students, either at the school or
   from warehouses maintained by district education officials. WFP field monitoring visits revealed
   numerous instances of documentation falsified by schools participating in the program and district


                                                                                                       49
    warehouses, as well as instances in which students who should have received cooking oil did not.
    As a result of these findings, nine education officials—including teachers, headmasters, and
    warehouse personnel—were suspended. Through follow-up on an Anti-Fraud Hotline allegation,
    WFP field monitoring personnel also learned that one ―school‖ participating in the program was, in
    fact, a private residence. WFP was able to recover the amount spent on cooking oil for this location
    from a participating organization. The seven remaining complaints related to alleged problems with
    service delivery and were determined to be unfounded.

    USAID Contractor Employees Terminated in FATA. During the fall of 2010 and spring of
    2011, USAID OIG and the Pakistan Anti-Fraud Hotline received information regarding alleged
    construction fraud on a USAID project in FATA. USAID OIG subsequently determined that three
    employees of a USAID contractor had submitted false documentation on the construction of two
    flood-protection walls. As a result of these false submissions, USAID paid more than $33,000 for a
    wall that was not built to specifications and more than $36,000 for a separate wall of which only
    7 percent was completed. In addition to falsifying documentation regarding the walls’ specifications,
    all three employees lied about the matter when questioned by OIG. The contractor’s team leader
    in charge of the project has since been terminated, as has the site engineer who certified that the
    incomplete wall was built to specifications. The head engineer, who certified completion to
    specification of the first wall, has been disciplined but is still employed on the project. USAID’s
    contracting officer determined that USAID would pay the full amount for the first wall but that the
    contractor should credit USAID $36,719 for the cost of the incomplete wall.

OIG continues to work to reinforce fraud reporting and investigation in Pakistan through the Anti-Fraud
Hotline. As the only hotline of its kind in Pakistan, the Anti-Fraud Hotline serves as a valuable means for
the people of Pakistan to provide feedback to USAID, its implementing partners, and the Government of
Pakistan. Since its introduction in February 2011, the Anti-Fraud Hotline has been widely advertised on
television, radio, newspaper, and billboards. As a result, the Hotline has received a large volume of
complaints related to service delivery problems. This quarter, the Anti-Fraud Hotline received 489
complaints, shown by type in the following figure.



                                  Types of Complaints
                                     3% 2%
                                           5%
                               12%
                                                                 Solicitation of Bribe, Kickback, or Favor
                                                                 Theft of Goods
                                                                 Procurement Fraud
                                                                 Problem with Service Delivery
                                                                 Other
                                     78%




                  Source: Transparency International-Pakistan.

                                                                                                             50
These complaints pertained to projects funded by USAID and implemented by NGOs, international
organizations, and the Government of Pakistan. While the vast majority of the complaints related to
flood relief efforts, a number of others provided important information for ongoing investigations or
prompted new investigations. The breakdown of complaints received during the quarter by province is
as follows: Sindh 395 (81 percent), Punjab 44 (9 percent), Khyber Pakhtunkhwa 23 (5 percent), and
Balochistan 11 (2 percent). Other provinces and administrative areas in Pakistan individually accounted
for less than one percent of complaints, and 12 other complaints (2 percent) could not be attributed to
any specific geographical area within Pakistan.

The Anti-Fraud Hotline has become an important source of information on possible improvements to
service delivery following the August-September 2011 floods, which displaced an estimated 1.8 million in
Sindh and Balochistan Provinces. Sindh Province, which was most severely affected by the flooding, was
associated with the most hotline complaints during the reporting period. As the following figure
illustrates, complaints about service delivery problems accounted for a larger proportion of complaints
in Sindh Province than in other areas of the country.




                                                                                                     51
                Volume and Distribution of Complaints by Province and Type for
                     Selected Provinces, October 1 to December 31, 2011




Source: Transparency International-Pakistan, USAID OIG, and Office of Afghanistan and Pakistan Affairs.


To help capitalize on the hotline’s potential for improving service delivery, OIG worked with the Anti-
Fraud Hotline to streamline the process for referring service-delivery-related complaints to USAID
implementing partners. These complaints may be addressed in conjunction with an OIG investigation or
independently by the concerned organization. During the reporting period, the Anti-Fraud Hotline
referred 158 service delivery complaints to USAID implementing partners.




                                                                                                          52
The Anti-Fraud Hotline works closely with OIG to monitor and address complaints regarding violations
of the Pakistan Public Procurement Rules (PPR) of 2004 in the tendering of USAID-funded projects
being carried out by the Government of Pakistan. Allegations of PPR violations received through the
hotline are handled in accordance with the procedures set forth by the PPR, which require the
tendering government agency to review and respond to the complaint within a set period. When it is
determined that a violation of the PPR has occurred, the tendering agency is required to cancel or
correct the procurement. If the issue is not properly resolved by the tendering agency, the Pakistan
Public Procurement Regulatory Agency and the Supreme Court of Pakistan can intervene.

During the last reporting period, the Anti-Fraud Hotline filed three complaints regarding the
procurement of fuel additives for the Muzaffargarh Thermal Power Station, the Jamshoro Thermal
Power Station, and the Tarbela Power Station. The complaints regarding these USAID-funded projects
resulted in the procurements being canceled in accordance with the PPR. In December 2011,
USAID/Pakistan issued a clarification memorandum to the power companies involved in these projects
requiring them to use language in the tenders for fuel additives that would prevent any vendor from
receiving an unfair advantage in the procurement.


Department of State Office of Inspector General

Work Under Way

As of December 31, 2011, DOS OIG had one audit, two evaluations, and one review under way:

   Audit of the U.S. Mission in Pakistan’s Local Guard Force Contract. The audit will
   evaluate the Department of State’s contract with a security contractor, G4S, to determine whether
   the contract has been administered effectively and whether G4S has achieved established
   performance measures. The contract with G4S includes provision of the local guard force for
   Embassy Islamabad, as well as for the three U.S. consulates in Pakistan.

   Evaluation of the Antiterrorism Assistance Program in Pakistan. This evaluation will
   determine the degree to which the Antiterrorism Assistance Program in Pakistan, which provides
   training and equipment to police, has achieved its intended outcomes, and assess whether the
   program provides effective oversight of contracts and U.S. Government-furnished equipment.

   Performance Evaluation of Management Controls Over Civilian Assistance to Pakistan.
   The evaluation will review the Department of State’s civilian assistance to Pakistan (excluding U.S.
   Agency for International Development programs) to determine whether management controls are
   in place, documented, and operating as intended and to ensure that DOS-administered funds are
   protected from waste, fraud, and diversion.




                                                                                                    53
    Compliance Follow-Up Review of the 2010 Inspection of Embassy Islamabad and
    Constituent Posts (ISP-I-10-64). This review is to determine the degree to which the Embassy
    and consulates have implemented recommendations from the 2010 inspection.

Work Planned

In addition to those under way, DOS OIG plans to conduct one evaluation and two audits of Pakistan-
related programs and activities during FY 2012:

    Evaluation of Emergency Action Plan for Embassy Islamabad. The evaluation will focus on
    Embassy Islamabad’s formulation of a comprehensive Emergency Action Plan, the completeness of
    associated documentation, and general knowledge and preparedness of all mission personnel.

    Audit of the Administration and Oversight of Economic Support Funds for Pakistan.
    This audit will determine whether DOS is effectively administering and overseeing the Pakistan
    Economic Support Funds.

    Audit of the Administration and Oversight of the Pakistan National Police Training and
    Mentoring Program. This audit will determine whether the Bureau of International Narcotics
    and Law Enforcement Affairs' administration and oversight of the Pakistan National Police Training
    and Mentoring Program have been effective and achieved stated performance goals.


Department of Defense Office of Inspector General

The Department of Defense OIG did not complete any projects related to the civilian assistance
program in Pakistan during the quarter and has no ongoing work in the area.


Government Accountability Office

GAO is an independent, nonpartisan agency that oversees federal government spending. GAO’s mission
is to help improve the performance and ensure the accountability of the federal government for the
benefit of the American people. GAO performs oversight at the request of Congress. Additionally,
GAO may be required to research issues mandated by public laws or may undertake work prompted by
broad-based congressional interest under the authority of the Comptroller General. GAO supports
congressional oversight through many avenues, such as auditing agency operations, investigating
allegations of illegal activities, reporting on the efficiency and effectiveness of government programs and
policies, analyzing policy, outlining options for congressional consideration, and issuing legal decisions
and opinions. GAO consults with key members of the accountability community, including the
inspectors general.




                                                                                                        54
Work Completed

GAO completed one engagement during the reporting period, October 1 to December 31, 2011:

   Pakistan: Assessment of State’s Justification to Support Its Certification of Pakistan’s
   Cooperation (November 29, 2011). This report provides an independent assessment of the
   Department of State’s 2011 certification of Pakistan’s progress on nonproliferation and
   counterterrorism issues. This report is classified and is not publicly available.

Work Under Way

As of December 31, 2011, GAO had one ongoing engagement concerning Pakistan:

   Pakistan Ammonium Nitrate Smuggling. Ammonium nitrate fertilizer is used to manufacture
   improvised explosive devices (IEDs) in Afghanistan that are a threat to U.S., coalition, and Afghan
   forces. Pakistan is a significant source of the ammonium nitrate used in Afghanistan. GAO plans to
   examine the extent to which (1) U.S. efforts are encouraging and assisting the Government of
   Pakistan in implementing its plan to address ammonium nitrate and other precursor materials used
   to make IEDs and (2) U.S. agencies are coordinating efforts to address the smuggling of ammonium
   nitrate and other precursor materials from Pakistan that are used to make IEDs. GAO expects to
   complete this engagement in summer 2012.




                                                                                                   55
Completed Oversight Reports as of December 31, 2011

Table 11 lists oversight reports completed since the passage of the Enhanced Partnership with Pakistan
Act, October 15, 2009.

              Table 11. Oversight Reports Completed as of December 31, 2011

    Agency         Report Number      Report Date                           Report Title

FY 2012 Reports

                                                      Pakistan: Assessment of State’s Justification to Support
GAO                N/A                   11/29/11
                                                      Its Certification of Pakistan’s Cooperation (Classified)

                                                      Audit of USAID/Pakistan’s Energy Efficiency and
USAID              G-391-12-002-P        11/23/11
                                                      Capacity Program

USAID              G-391-12-001-P        11/3/11      Audit of USAID/Pakistan’s Firms Project

                                                      Financial Audit of Budgetary Support to the
                                                      Government of Pakistan, USAID/Pakistan Program
USAID              G-391-12-002-R        11/3/11      Assistance Agreement No. 391-005-ES-07, Managed by
                                                      the Ministry of Finance, for the Year Ended June 30,
                                                      2008

                                                      Financial Audit of Budgetary Support, USAID/Pakistan
                                                      Program Assistance Agreement No. 391-AAG-012-IL -
USAID              G-391-12-001-R        10/26/11     02, Managed by the Benazir Income Support Program
                                                      (BISP), for the Period From September 30, 2009, to
                                                      March 31, 2011

FY 2011 Reports

                                                      Combating Terrorism: Pakistan Counterinsurgency
GAO                GAO-11-860SU          9/20/11      Funds Disbursed, but Human Rights Vetting Process
                                                      Can Be Enhanced

                                                      Audit of USAID/Pakistan’s Community Rehabilitation
USAID              G-391-11-006-P        8/29/11
                                                      Infrastructure Support Program

                                                      Pakistan Assistance: Relatively Little of the $3 Billion in
                                                      Requested Assistance Is Subject to State’s Certification
GAO                GAO-11-786R           7/19/11
                                                      of Pakistan’s Progress on Nonproliferation and
                                                      Counterterrorism Issues

                                                      Closeout Financial Audit of the Forman Christian
                                                      College for the Development of a Four-Year Bachelor
USAID              G-391-11-004-R        6/23/11      Degree Program and Strengthening Programs in Basic
                                                      Science and Information Technology, for the Period
                                                      July 1, 2009, to March 31, 2010



                                                                                                              56
      Agency   Report Number    Report Date                       Report Title

                                              Audit of USAID/Pakistan’s Road Rehabilitation and
USAID          G-391-11-005-P     6/20/11     Reconstruction Activities Under the Quick Impact
                                              Projects in South Waziristan

                                              Financial Audit of USAID/Pakistan’s Rupee Trust Fund,
USAID          G-391-11-001-N     5/26/11     for the Period October 1, 2006, to September 30,
                                              2009

                                              Financial Audit of the Pakistan Competitiveness
                                              Support Fund, USAID/Pakistan Grant Agreement No.
USAID          G-391-11-003-R     5/10/11     391-G-00-06-01073-00, Managed by Competitiveness
                                              Support Fund for the Period July 1, 2009, to June 30,
                                              2010

                                              Audit of USAID/Pakistan’s Management of Preaward
USAID          G-391-11-004-P      5/6/11
                                              Assessments

                                              Closeout Financial Audit of the Program ―Interactive
                                              Teaching and Learning Project,‖ USAID/Pakistan
                                              Cooperative Agreement No. 391-A-00-06-01075-00,
                                              and Financial Audit of Program ―Links to Learning
USAID          G-391-11-002-R      4/8/11     Education Support to Pakistan,‖ Subaward under
                                              USAID/Pakistan Cooperative Agreement No. 391-A-
                                              00-08-01100-00, Managed by Children’s Global
                                              Network Pakistan Limited, for the Period July 1, 2008,
                                              to February 26, 2010

                                              Department of State’s Report to Congress and U.S.
GAO            GAO-11-310R        2/17/11     Oversight of Civilian Assistance to Pakistan Can Be
                                              Further Enhanced

                                              Accountability for U.S. Equipment Provided to Pakistan
GAO            GAO-11-156R        2/15/11     Security Forces in the Western Frontier Needs to be
                                              Improved

                                              Audit of USAID/Pakistan’s Flood Relief Efforts as
USAID          G-391-11-003-P     1/24/11     Administered by Local Nongovernmental
                                              Organizations

                                              The Bureau of Population, Refugees and Migration’s
DOS            MERO-I-11-01         1/11
                                              Internally Displaced Persons Program in Pakistan

                                              Financial Audit of Khushhali Bank Limited Under the
                                              Developing Non-Bankable Territories for Financial
USAID          G-391-11-001-R     12/30/10
                                              Services Program (Close-Out Audit), for the Period
                                              January 1, 2009, to September 30, 2009

                                              Audit of USAID/Pakistan’s Livelihood Development
USAID          G-391-11-002-P     12/10/10    Program for the Upper Region of the Federally
                                              Administered Tribal Areas



                                                                                                    57
      Agency      Report Number    Report Date                        Report Title

                                                 Audit of USAID/Pakistan’s Livelihood Development
USAID             G-391-11-001-P     12/10/10    Program for the Lower Region of the Federally
                                                 Administered Tribal Areas

                                                 Financial Audit of the Costs Incurred by Research
                                                 Triangle Institute Under the Education Sector Reform
USAID             G-391-11-001-D     11/8/10     Assistance Program’s School Enhancement Program
                                                 Component, for the Period December 4, 2002, to
                                                 September 30, 2007

FY 2010 Reports

                                                 Audit of USAID/Pakistan’s Family Advancement for Life
USAID             5-391-10-012-P     8/31/10
                                                 and Health Program

                                                 Financial Audit of the Pakistan Competitiveness
                                                 Support Fund, USAID/Pakistan Grant Agreement No.
USAID             G-391-10-001-R      8/4/10     391-G-00-06-01073-00, Managed by the
                                                 Competitiveness Support Fund, for the Period
                                                 February 3, 2006, to June 30, 2009

                                                 Audit of USAID/Pakistan’s Primary Healthcare
USAID             5-391-10-010-P     6/28/10     Revitalization, Integration and Decentralization in
                                                 Earthquake-Affected Areas Project

                                                 Review of USAID’s Internally Displaced Persons
USAID             5-391-10-001-S     6/28/10
                                                 Programs in Pakistan


DOS               ISP-I-10-64          6/10      Inspection of Embassy Islamabad, Pakistan


                                                 Financial Audit of USAID Funds Managed by Forman
USAID             5-391-10-033-R     5/18/10     Christian College, Lahore, for the Period July 1, 2007,
                                                 to June 30, 2009

                                                 Financial Audit of USAID Funds Managed by Khushhali
USAID             5-391-10-029-R     4/30/10
                                                 Bank for the Year Ended December 31, 2008

                                                 Combating Terrorism: Planning and Documentation of
GAO               GAO-10-289         4/15/10     U.S. Development Assistance in Pakistan’s Federally
                                                 Administered Tribal Areas Need to Be Improved

                                                 Closeout Financial Audit of USAID Funds Managed by
USAID             5-391-10-026-R     3/24/10     Greenstar Social Marketing Pakistan (Guarantee)
                                                 Limited, for the Period July 1 to December 31, 2007

                                                 The Bureau of International Narcotics and Law
DOS               MERO-A-10-03         3/10      Enforcement Affairs Air Wing Program in Afghanistan
                                                 and Pakistan, Performance Audit




                                                                                                       58
      Agency   Report Number    Report Date                       Report Title

                                              Closeout Financial Audit of USAID Funds Managed by
USAID          5-391-10-020-R     2/11/10     Aga Khan University—Examination Board, for the Year
                                              Ended December 31, 2007

                                              Audit of USAID/Pakistan’s Capacity Building for the
USAID          5-391-10-005-P     1/28/10     Federally Administered Tribal Areas Development
                                              Program

                                              Financial Audit of USAID Funds Managed by Children’s
USAID          5-391-10-012-R     12/22/09    Global Network Pakistan Limited, for the Year Ended
                                              June 30, 2008

                                              Status of the Bureau of International Narcotics and
DOS            MERO-A-10-02        12/09      Law Enforcement Affairs Counternarcotics Programs
                                              in Afghanistan, Performance Audit

                                              Effectiveness of Counter Narcotics Programs in
DOS            MERO-A-10-01        11/09
                                              Pakistan, Performance Audit




                                                                                                    59
                                                            Appendix




Appendix—–Abbreviations
BISP   Benazir Income Support Program

DEA    Drug Enforcement Administration

DOC    Department of Commerce

DOS    Department of State

FATA   Federally Administered Tribal Areas

FBI    Federal Bureau of Investigation

FFP    Food for Peace

FY     fiscal year

GAO    Government Accountability Office

HEC    Higher Education Commission

IED    improvised explosive device

NA     not available

NAB    National Accountability Bureau

NAS    Narcotics Affairs Section (U.S. Embassy Islamabad)

NATO   North Atlantic Treaty Organization

NDMA   National Disaster Management Authority

NGO    nongovernmental organization

OFDA   Office of Foreign Disaster Assistance

OIG    Office of Inspector General

PAS    Public Affairs Section (U.S. Embassy Islamabad)

POL    Political Affairs Section (U.S. Embassy Islamabad)

PPR    Public Procurement Rules

REF    Refugee Affairs Section (U.S. Embassy Islamabad)


                                                                 60
                                                             Appendix


RSO      Regional Security Office (U.S. Embassy Islamabad)

U.N.     United Nations

UNICEF   United Nations Children’s Fund

USAID    U.S. Agency for International Development

USDA     U.S. Department of Agriculture

USIP     U.S. Institute of Peace

USTDA    U.S. Trade and Development Agency

WAPDA    Water and Power Development Authority

WFP      World Food Programme




                                                                  61
